<html>
<title> - DEFICIENT ELECTRICAL SYSTEMS AT U.S. FACILITIES IN IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
        DEFICIENT ELECTRICAL SYSTEMS AT U.S. FACILITIES IN IRAQ 

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 30, 2008

                               __________

                           Serial No. 110-134

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

48-065 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

































              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
JACKIE SPEIER, California

                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director


























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on July 30, 2008....................................     1
Statement of:
    Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
      Pennsylvania...............................................    35
    Williams, Charles E., Jr., Director, Defense Contract 
      Management Agency, accompanied by Dave Graff, Director, 
      International Division; Keith Ernst, former Director, 
      Defense Contract Management Agency; Jeffrey P. Parsons, 
      Executive Director, Army Contracting Command, U.S. Army; 
      Gordon S. Heddell, Acting Inspector General, U.S. 
      Department of Defense, accompanied by Don Horstman, Deputy 
      Inspector General for Policy and Oversight, U.S. Department 
      of Defense; and Thomas Bruni, Theater Engineering and 
      construction manager, KBR, Inc.............................    43
        Bruni, Thomas............................................    79
        Ernst, Keith.............................................    53
        Heddell, Gordon S........................................    71
        Parsons, Jeffrey P.......................................    60
        Williams, Charles E., Jr.................................    43
Letters, statements, etc., submitted for the record by:
    Bruni, Thomas, Theater Engineering and construction manager, 
      KBR, Inc., prepared statement of...........................    81
    Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
      Pennsylvania, prepared statement of........................    39
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................    33
    Ernst, Keith, former Director, Defense Contract Management 
      Agency, prepared statement of..............................    55
    Heddell, Gordon S., Acting Inspector General, U.S. Department 
      of Defense, prepared statement of..........................    73
    Parsons, Jeffrey P., Executive Director, Army Contracting 
      Command, U.S. Army, prepared statement of..................    62
    Watson, Hon. Diane E., a Representative in Congress from the 
      State of California, prepared statement of.................   112
    Waxman, Hon. Henry A., a Representative in Congress from the 
      State of California:
        Staff report.............................................     4
        Prepared statement of....................................    23
    Williams, Charles E., Jr., Director, Defense Contract 
      Management Agency, prepared statement of...................    46


        DEFICIENT ELECTRICAL SYSTEMS AT U.S. FACILITIES IN IRAQ

                              ----------                              


                        WEDNESDAY, JULY 30, 2008

                          House of Representatives,
            Committee on Oversight and Government Reform, ,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Henry A. Waxman 
(chairman of the committee) presiding.
    Present: Representatives Waxman, Higgins, Altmire, 
McCollum, Tierney, Sarbanes, Lynch, Davis of Virginia, Brady, 
Marchant, Speier, Issa, and Bilbray.
    Staff present: Kristin Amerling, general counsel; Caren 
Auchman and Ella Hoffman, press assistants; Phil Barnett, staff 
director and chief counsel; Jen Berenholz, deputy clerk; 
Margaret Daum, counsel; Christopher Davis, professional staff 
member; Zhongrui ``JR'' Deng, chief information officer; Miriam 
Edelman, Jennifer Owens, and Mitch Smiley, special assistants; 
Ali Golden, investigator; Earley Green, chief clerk; Karen 
Lightfoot, communications director and senior policy advisor; 
David Rapallo, chief investigative counsel; Leneal Scott, 
information systems manager; Lawrence Halloran, minority staff 
director; Jennifer Safavian, minority chief counsel for 
oversight and investigations; Keith Ausbrook, minority general 
counsel; John Brosnan, minority senior procurement counsel; 
Steve Castor, minority counsel; Mark Lavin, minority Army 
fellow; Brian McNicoll, minority communications director; and 
John Ohly, minority professional staff member.
    Chairman Waxman. The meeting of the committee will please 
come to order.
    Our soldiers and their families make enormous sacrifices 
for our country. And they make these sacrifices understanding 
the deadly risks that they may face. Since the Iraq war began 
over 5 years ago, over 4,000 servicemen and women have been 
killed and over 30,000 injured. But no soldier should die while 
relaxing in a swimming pool, or washing a vehicle, or taking a 
shower. Yet that is exactly what happened in Iraq. As a result 
of widespread electrical deficiencies throughout U.S. military 
facilities, our soldiers have been shocked and killed 
needlessly.
    The purpose of today's hearing is to examine why this 
happened and to determine whether the actions taken by the 
Defense Department and its largest contractor in Iraq, KBR, are 
sufficient to prevent these senseless deaths.
    There was no shortage of warnings about the electrical 
dangers in Iraq, just a shortage of will to do the right thing 
by our troops.
    In 2004, the U.S. Army Safety Center issued a report 
warning about widespread electrical hazards throughout Iraq. 
The report explained that five U.S. soldiers had been 
electrocuted in Iraq that year alone. According to the report, 
one of these soldiers ``was found dead, lying on a shower room 
floor with burn marks on his body.'' The report attributed his 
death to ``electricity that traveled from the water heater 
through the metal pipes to the showerhead.''
    The 2004 report warned commanders that they ``must require 
contractors to properly ground electrical systems.'' But 
despite these warnings, few actions were taken by Pentagon 
leadership or KBR officials.
    In February 2007, the Defense Contract Management Agency 
reported that there had been 283 fires at facilities maintained 
by KBR in a 5-month period from August 2006 through January 
2007. These fires burned down the largest dining facility in 
Iraq. And they killed at least two soldiers.
    The Defense Contract Management Agency report described the 
widespread electrical deficiencies as a ``major challenge'' and 
the ``primary safety threat, theater wide.'' It also warned 
that ``some contractors connected to KBR were not following 
basic safety principles.''
    But Defense Department officials again took no action. In a 
May 2008 e-mail, a DCMA official warned his superiors that the 
``lack of action with regard to any corrective action, or 
increased surveillance, results in a direct liability for our 
Agency.''
    In his testimony today, Jeffrey Parsons, the executive 
director of the Army Contracting Command, says that the Defense 
Department now recognizes that ``neither LOGCAP nor DCMA have 
sufficient skill sets or expertise to perform adequate 
oversight of electrical work being performed by KBR.''
    Well, that is a remarkable admission. We will ask why it 
took the Defense Department 4 years to realize that it lacks 
the skill and expertise to oversee KBR. In total, 19 U.S. 
military and contractor personnel may have been killed as a 
result of electrocution or faulty wiring in Iraq. These young 
heroes might still be alive today if the Department had done 
the proper oversight.
    One of the individuals who died by electrocution is Staff 
Sergeant Ryan Maseth, a decorated Army Ranger and Green Beret 
who was electrocuted in his shower on January 2, 2008. Army 
investigators concluded that he was killed when his water pump 
overheated, ``thereby causing the failure of the breaker 
switch, capacitor, and internal fuse.''
    A preliminary report by the Defense Department Inspector 
General on Sergeant Maseth's death was provided to the 
committee on Monday and leaked to the press yesterday. This IG 
report absolves the military and KBR of responsibility in the 
death and asserts that there was ``no credible evidence'' that 
they knew of electrical problems with Staff Sergeant Maseth's 
shower.
    As part of the Oversight Committee's investigation, we 
obtained many new documents about Staff Sergeant Maseth's 
death. When we described these documents to the Inspector 
General's staff yesterday, they said they believed they did not 
have this new information.
    Now, we do not know whether the Inspector General failed to 
ask for the right documents, which would be a stain on the 
Inspector General's work, or whether the documents were 
withheld from the Inspector General, which would call into 
question the motives of the Department and KBR. But we do know 
that these documents appear to contradict the Inspector 
General's findings.
    My staff has prepared an analysis of the new information 
about Staff Sergeant Maseth's death. And I ask that this staff 
analysis and the documents it cites be made part of today's 
hearing record.
    Mr. Davis of Virginia. There is no objection, Mr. Chairman.
    Chairman Waxman. Without objection, that will be the order.
    [The information referred to follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. The documents obtained by the committee 
include work orders from the facility where Staff Sergeant 
Maseth was electrocuted. These work orders appear to show that 
Sergeant Justin Hummer, who occupied Staff Sergeant Maseth's 
quarters until October 2007, repeatedly warned KBR and the 
military about electrical shocks in the shower.
    According to Sergeant Hummer, he was shocked ``four or five 
times in the shower,'' between June and October 2007. On at 
least one occasion, he ``had to use a wooden handle to turn off 
the shower nozzle because the electrical current was so 
strong.''
    If these work orders are accurate, they show that in July 
2007, 6 months before Staff Sergeant Maseth was electrocuted, 
KBR may have installed the water pump that ultimately 
malfunctioned, resulting in his death.
    The electrical problems that led to Staff Sergeant Maseth's 
death were not new problems. In February 2007, KBR conducted an 
assessment of the facility where he worked. The KBR assessment 
found major electrical problems, including with the building's 
main circuit panel.
    These problems were confirmed in a second KBR assessment 
prepared after Staff Sergeant Maseth's death. The report found 
that the majority of electrical panels in the complex ``are in 
disrepair and require replacement'' and that a majority of 
electrical systems are ``in complete disarray.''
    The serious electrical hazards are finally getting some 
attention. KBR recommended in March that troops immediately 
evacuate at least six buildings at the compound where Staff 
Sergeant Maseth was killed because the ``electrical conditions 
in all buildings make them uninhabitable for safety and health 
reasons.''
    Today we will ask why it took so long for KBR and the 
Defense Department to protect our troops from these dangerous 
conditions. We are going to ask our witnesses tough questions 
about the documents we have obtained, and we will try to 
understand both the specific cases and the broad systemic 
problems at issue.
    I know that one of our witnesses recently retired and did 
not have to appear today. I know that others flew in from Iraq 
for this hearing. And I want to thank all of you for your 
cooperation with the committee's investigation.
    Before we call on our witnesses, I want to recognize Mr. 
Davis.
    [The prepared statement of Chairman Henry A. Waxman 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Mr. Davis of Virginia. Thank you, Mr. Chairman. I will try 
to be brief, because I know we have Senator Casey. We are happy 
to have you here today.
    Today's hearing will examine injuries and deaths of 
military personnel resulting from deficiencies in the electric 
system at facilities occupied by our forces in Iraq. There is 
no question every one of these accidental deaths is a tragedy. 
There is also no doubt the electric infrastructure in Iraq is a 
mess and presents a constant danger to everyone there.
    Further, there is little question the electric systems 
within many of the facilities occupied by our personnel are 
significantly below U.S. standards. In many cases, pursuant to 
command decisions, we are forced to use buildings built and 
wired during the regime of Saddam. Apparently, the regime had 
the same disdain for building codes it showed to U.N. 
resolutions.
    The first step in preventing injuries and death from 
electrocution is to do a better job training our soldiers to 
appreciate the inherent dangers of living, working, and 
fighting in the middle of a Third World electrical 
infrastructure. These are considerations you don't often work 
about in the United States and other First World countries. Our 
soldiers are trained and equipped to deal with the inevitably 
dangerous environment of Iraq and other war zones, but are they 
sufficiently prepared to understand the dangers of ungrounded 
high voltage electric current?
    As you said, Mr. Chairman, on January 2, 2008, Army Staff 
Sergeant Ryan D. Maseth was electrocuted while showering in his 
Special Forces compound in Baghdad. Sergeant Maseth was 
electrocuted when the ungrounded water pump on the roof of his 
facilities failed and electrified the water distribution pipes. 
The safety shut-off also failed, apparently, because tar from 
recent roof repairs followed the circuit breaker.
    Sergeant Maseth's death is 1 of 16 electrocutions 
identified by investigators from the Department of Defense's 
Office of Inspector General. The accidental deaths have 
occurred under myriad circumstances. IG investigators 
determined eight of the cases involved contact with power lines 
during military or construction operations. Four cases were 
caused by improperly grounded or faulty electric equipment. The 
three remaining cases involved individuals attempting to repair 
faulty electric equipment.
    These deaths raised the question of whether our soldiers 
are properly trained to be aware and vigilant. For example, in 
May 2004, a soldier was electrocuted after trying to use a 
shower that was taken out of service for maintenance reasons. 
It was locked and the wiring disconnected, but a tired soldier 
looking for some clean water and comfort put the shower back 
into service with tragic results. Another unfortunate incident 
involved a service member who died after being clipped by a low 
hanging power line while atop a 7-ton truck.
    Better communication and safety awareness training may have 
prevented these deaths, and I think would have prevented these 
deaths. These accidents are troubling, occurring under a 
variety of circumstances in different locations throughout 
Iraq. They have occurred in facilities such as forward 
operating bases and camps, along power lines, atop towers, 
while traveling in vehicles, and outside tents. Fatalities have 
occurred in connection with servicing generators, communication 
equipment, radar equipment, lighting systems, and air 
conditioning units.
    According to the IG, these unfortunate incidents had no 
correlation with each other in terms of causal factors other 
than the need for better safety standards and practices in an 
inherently unsafe environment. So based on what we know, it is 
premature to attribute electric incidents to just contractor 
performance. And the familiar contractor blame doesn't make 
soldiers safe by themselves, but we need to look at it and 
understand it further.
    It is true that the death of Sergeant Maseth occurred in a 
facility maintained by KBR, the former Halliburton subsidiary 
that provides most of the logistical support for our forces in 
Iraq. The contract calls only for repairs when requested by the 
military unit, and we will learn more about this as we move 
through the hearing today.
    An internal report by the IG on the Maseth tragedy found no 
evidence, no credible evidence, that representatives from KBR, 
or DCMA, were aware of imminent life-threatening hazards prior 
to the electrocution, but other aspects of the incident are in 
litigation. And this committee should tread carefully so that 
we don't interfere with prejudice into that.
    This hearing should also help raise awareness of important 
safety issues affecting our soldiers, sailors, and Marines 
abroad. Any death of deployed personnel by electrocution in 
theaters should be promptly and thoroughly investigated. All 
factors contributing to unsafe conditions should be immediately 
remedied. At times, this involves making sure contractors do 
what DOD pays them to do. It will always mean doing everything 
possible to increase occupational safety, training, and 
awareness, for those we send to do the most unsafe thing 
imaginable, and that is fight a war. Thank you.
    [The prepared statement of Hon. Tom Davis follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Let me ask unanimous consent that 
Representative Brady and Altmire be permitted to sit with us in 
our hearing today. They are not members of the committee, but 
we want to welcome them and their interest in this subject.
    I am pleased to welcome Senator Bob Casey to give a 
statement to the committee. Senator Casey, who represents the 
family of Staff Sergeant Ryan Maseth, has been actively 
involved in these issues in the Senate, and I thank him for 
being here and for his testimony today. Senator, this committee 
is unusual in that every witness that testifies before us does 
so under oath. And we would like to ask you if you would rise 
and hold up your right hand?
    [Witness sworn.]
    Chairman Waxman. The record will indicate that you answered 
in the affirmative. We are pleased to have you here and to 
recognize you for such statement as you wish to make.

STATEMENT OF HON. ROBERT P. CASEY, JR., A U.S. SENATOR FROM THE 
                     STATE OF PENNSYLVANIA

    Senator Casey. Thank you very much, Mr. Chairman, for the 
privilege that I have to testify today before this committee 
and for your leadership on this issue. I want to thank you and 
thank Ranking Member Davis for this opportunity, and especially 
for the commitment that you have made to find the truth, the 
truth as it relates to the death of Ryan Maseth, as well as the 
other soldiers and others who have lost their lives because of 
this problem we have had in Iraq. And I want to thank other 
members of the committee who are here. I know that Jason 
Altmire, from Pennsylvania, who as well represents this family 
is here with us today.
    And I am really here for a number of reasons, but I think 
the principal reason I am sitting here today, and maybe the 
principal reason that many of us are sitting here today, is 
because of the courage of a number of people, but in 
particular, the courage and the determination that Cheryl 
Harris has shown. To do two things really, one obviously, as a 
mother, as a member of a family who lost someone tragically in 
Iraq to get answers, to get the truth about what happened to 
her son. No one would expect anything less of her. But she has 
also been so committed to finding the truth about this so that 
it doesn't happen to any other family. Over and over again, she 
has emphasized that.
    And when you think about all of the ways that a soldier can 
die in battle, die on the battle field, no one would ever 
imagine, and I think one of the major questions that hangs over 
this hearing and this tragedy, and the series of tragedies, is 
why should a soldier be put at risk when he is taking a shower, 
or when he is washing a Humvee, or doing the things that 
soldiers do in their daily lives when they are not on the 
battlefield, when they are not under fire?
    And as you said, Mr. Chairman, Ryan Maseth is a native of 
Shaler, PA, in western Pennsylvania. A decorated Army Ranger 
and Green Beret. And when he was killed, he didn't die of enemy 
fire, but he was electrocuted simply by taking a shower. His 
mother, Cheryl Harris, was first told by Army officials that 
Ryan died because he took an electrical appliance into the 
shower. Only after further digging did she learn that he died 
because an improperly grounded water pump produced an 
electrical current in Ryan's shower.
    And it is because of her passion and drive to find the 
truth that I, and others, are here today. What she deserves and 
what every family deserves is very simple, an honest 
explanation of what led to the death of her child, and 
accountability for those whose actions may have, may have, 
contributed to an unnecessary death.
    We are, I believe, at the beginning of what should be a 
comprehensive inquiry. We have many more questions at this time 
than answers. Multiple actors, including the Defense 
Department, private contractors, and others, may bear varying 
levels of responsibility and we should not leap to presume 
guilt by anyone. But it is important that we pursue this matter 
wherever it may lead. I wrote in my initial letter to Secretary 
Gates last month that we need to know ``what steps the 
Department of Defense has taken to ensure that no more American 
men or women serving in Iraq suffer needless deaths by 
electrocution due to faulty wiring or negligent maintenance.''
    Mr. Chairman, just a quick summary of some of the history 
here, some of which you have already outlined. You cited 
testimony and evidence that indicates that in October 2004, 
only 18 months after the United States entered Iraq, the Army 
published a safety bulletin describing electrocutions as a 
``killer of soldiers.'' Frank Trent, a safety specialist with 
the Army Corps of Engineers, was quoted in the report as 
follows, in part, ``We've had several shocks in showers and 
near misses here in Baghdad, as well as other parts of the 
country. As we install temporary and permanent power on our 
projects, we must ensure we require our contracts to properly 
ground electrical systems.'' So said a safety specialist with 
the Army Corps of Engineers in October 2004.
    And as you cited, Mr. Chairman, between June and October 
2007, Sergeant 1st Class Justin Hummer residing at the same 
Palace Complex, where Ryan Maseth would later live, during this 
time period Mr. Hummer reports being shocked in the shower at 
least four times and submits a work order at that time, each 
time for an appropriate repair to be made.
    And then finally, on January 2, 2008, Sergeant Maseth steps 
into the shower and was electrocuted. His body, burnt and 
smoldering, is discovered at that time by a fellow soldier who 
himself is then severely shocked due to a lingering current.
    We were initially told that 12 Americans had died due to 
electrocution deaths in Iraq. On July 8th, General David 
Petraeus, in response to a question that I submitted to him, 
stated, in fact, that 13, not 12, 13 Americans, 11 soldiers and 
two contractor employees, died by electrocution. When I met 
with Mr. William Utt, the president and CEO of KBR last Friday, 
he told me that KBR believes that 15 Americans have died by 
electrocution. Finally, just in the last 24 to 48 hours, the 
Department of Defense Inspector General is reporting 16 non-
combat electrocutions in Iraq since 2003. So, we have to get to 
the bottom of what that number is.
    Mr. Chairman, when I met with the KBR CEO on Friday, he 
told me that KBR does not bear responsibility for Ryan Maseth's 
death because KBR, allegedly, was operating at the complex in 
Baghdad under the so-called Level B contract engagement. Under 
this type of contract, Mr. Utt asserted that KBR technicians 
were responsible for servicing problems brought to their 
attention by the Army, and not given the broader task of 
preventive maintenance and proactively identifying problems, as 
a ``Level A'' contract responsibility would have required.
    We don't know what the truth is there. Just because someone 
asserts what their responsibility was doesn't make it so. We 
need to know more about Level B and Level A, but especially 
what Level B meant.
    I have sent letters to both Mr. Utt and the Pentagon to 
ascertain the facts. But it does not explain why, even after 
four separate work orders were filed in a matter of months on 
the same shower, why that shower was never fixed and why Ryan 
Maseth was electrocuted in that same shower. It is my hope 
today that this hearing will begin to shed further light on 
this question, and other questions as well. I look forward to 
reviewing what the Defense Department Inspector General has to 
say.
    I was, however, yesterday, disappointed that the Pentagon's 
chief spokesman, at his daily briefing, made an unprompted 
statement questioning the rationale for this hearing and 
implying that partisan politics are involved in this hearing. 
The U.S. Congress should not apologize for carrying out one of 
its core functions, as envisioned by the Framers of our 
Constitution, oversight of the executive branch. While they 
died under different circumstances, we know that these 
Americans, and possibly more, died of electrocutions in Iraq. 
Sixteen deaths do not make for isolated incidents or random 
occurrences. They constitute a pattern and are of genuine 
danger to our men and women serving in Iraq.
    As this danger continues to this very day, my office has 
heard from several active-duty soldiers, who report that, as 
recently as 3 weeks ago, soldiers in Iraq continue to receive 
electrical shocks on a regular basis as they carry out their 
daily activities, including taking showers. Electric shocks are 
not the only danger produced by faulty wiring. There have been 
hundreds and hundreds of electrical fires at U.S. military 
facilities throughout Iraq since 2003.
    The Defense Department itself acknowledged that almost 300 
electrical fires in one 5-month period between 2006 and 2007. 
On June 25th, a faulty light fixture sparked a blaze that 
destroyed 10 buildings in the U.S. encampment outside Fallujah. 
Thank God, there were no casualties, but members of the Lima 
Company 3rd Battalion 6th Marine Regiment lost their entire 
possessions. They have been forced to write home and ask for 
donations to replace personal items.
    Mr. Chairman, I want to conclude with this. I am not here, 
nor is anyone here, to point fingers, but simply to demand the 
truth. We are not here to prejudge the culpability of KBR, the 
Defense Contract Management Agency, the U.S. Army, or any other 
entity. The Congress must proceed with an open and transparent 
investigation. But Cheryl Harris, and the loved ones of at 
least 15, maybe more, other Americans, deserve answers. They 
need to know why faulty wiring in Iraq has been highlighted, 
time and time again, as a major safety hazard going back to as 
early as 2004, but little or no action has been taken.
    The American people and these families have a right to know 
the truth. We arrive in America at the truth by asking tough 
questions and demanding honest and complete answers. Our system 
of justice is by its very nature adversarial. We know that the 
truth doesn't fall like raindrops, clear raindrops from the 
sky. It must be elicited from individuals or unearthed in 
documents or other evidence. The only way to bring about 
justice is to get the truth.
    Mr. Chairman, thank you for the privilege of appearing 
before this hearing.
    [The prepared statement of Senator Robert P. Casey, Jr., 
follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Chairman Waxman. Thank you very much, Senator Casey.
    I agree with you. It is our responsibility to get to the 
truth. And I am amazed that someone would consider this in any 
way partisan. It is ironic to hear that people that should have 
been doing the oversight within the military, who are saying 
that they did the best they could, and the contractor saying he 
did the best he could, and then as Congress looks at it, they 
say, well, if you look at it, it must be partisan. One of the 
best ways to keep people honest is to make sure that we get to 
the truth and the people know the truth is going to come out, 
not so much because we want to blame people but because we want 
these problems corrected.
    I, too, met with Cheryl Harris and I know of her commitment 
to make sure that what she suffered with the loss of her son 
doesn't happen to anyone else. And I congratulate you as her 
Senator, and Congressman Altmire as her Representative in the 
House, for insisting on this investigation, and insisting on 
this hearing, and insisting on knowing the facts, not with any 
other purpose but to get the facts so that this sort of thing 
will never happen again. I thank you for being here.
    Mr. Davis, do you have comments?
    Mr. Davis of Virginia. Well, Senator Casey, we very much 
appreciate your being here and your leadership on there, and I 
just want to reiterate what the chairman said. This is not 
partisan politics. We support this hearing, and I think we 
would be remiss and even negligent if we didn't follow through 
and investigate. This is something that the executive branch 
has really not seen fit to follow through on. If the executive 
branch doesn't want to get to the bottom of this, this 
committee certainly will, and we appreciate your efforts on 
this and will continue to work with you. Thank you for being 
here.
    Senator Casey. Thank you, sir.
    Chairman Waxman. With the indulgence of the other Members, 
we would like to move to the second panel. Thank you very much, 
Senator, for being here.
    I want to now call forward the following witnesses: For the 
DCMA, Charlie E. Williams, Jr., the Director of the Defense 
Contract Management Agency; Keith Ernst, the former Director of 
the Defense Contract Management Agency; he retired from that 
position in May 2008. From the Army, Jeffrey P. Parsons, the 
Executive Director of the U.S. Army Contracting Command. From 
the Defense Department, Inspector General Gordon Heddell, 
Acting Inspector General at the Department of Defense, and he 
is accompanied by Don Horstman, the Deputy Inspector General 
for Policy and Oversight; and from KBR, Thomas Bruni, who is 
KBR's Theater Engineering and construction manager for Iraq.
    We are pleased to have all of you here. Even before you sit 
down, you might as well keep standing, because it is our 
practice to put all witnesses under oath. So, if you would 
raise your right hands.
    [Witnesses sworn.]
    Chairman Waxman. The record will indicate that each of the 
witnesses answered in the affirmative. For those of you who 
have given us a prepared statement in advance, that statement 
will be in the record in its entirety. What we would like to 
ask each of you is to give us an oral presentation of around 5 
minutes. We are going to have a clock that will indicate that 
green for 4 minutes, yellow for the last minute, and then when 
the 5-minutes is up, it will turn red. And when you see a red 
light, we would very much appreciate it if you would conclude 
your testimony.
    We are delighted that you are all here and I thank you for 
being here.
    Mr. Williams, why don't we start with you.

   STATEMENTS OF CHARLES E. WILLIAMS, JR., DIRECTOR, DEFENSE 
    CONTRACT MANAGEMENT AGENCY, ACCOMPANIED BY DAVE GRAFF, 
DIRECTOR, INTERNATIONAL DIVISION; KEITH ERNST, FORMER DIRECTOR, 
    DEFENSE CONTRACT MANAGEMENT AGENCY; JEFFREY P. PARSONS, 
EXECUTIVE DIRECTOR, ARMY CONTRACTING COMMAND, U.S. ARMY; GORDON 
   S. HEDDELL, ACTING INSPECTOR GENERAL, U.S. DEPARTMENT OF 
DEFENSE, ACCOMPANIED BY DON HORSTMAN, DEPUTY INSPECTOR GENERAL 
   FOR POLICY AND OVERSIGHT, U.S. DEPARTMENT OF DEFENSE; AND 
  THOMAS BRUNI, THEATER ENGINEERING AND CONSTRUCTION MANAGER, 
                           KBR, INC.

             STATEMENT OF CHARLES E. WILLIAMS, JR.

    Mr. Williams. Thank you, Chairman Waxman, Congressmen 
Davis, and distinguished members of the Committee on Oversight 
and Government Reform. I appreciate the opportunity to appear 
before you and discuss your concerns about the Defense Contract 
Management Agency's contract management and oversight in Iraq. 
With me today is Captain Dave Graff, Director of our 
International Division.
    First, I would like to recognize the families of our fallen 
patriots for their courage and strength. We honor their 
children, spouses, and siblings for the great sacrifices they 
have made in support of their country and each of us. The loss 
of life is always tragic. Please know that the entire DCMA team 
is committed to the care and safety of our warfighters, 
civilians, and contractor personnel.
    I became the Director of DCMA in May of this year, and my 
comments today reflect my observations over the last 3 months. 
I am extremely proud to lead the DCMA team of approximately 
9,900 professional civilians and military located in over 700 
locations around the world. DCMA is responsible for the 
administration of about 324,000 contracts with unliquidated 
obligations of over $180 billion awarded to over 17,000 
contractors. DCMA accepts approximately 750,000 shipments of 
supplies and some 1,200 aircraft each year. We also manage over 
$100 billion of government property and administer about $32 
billion of contract financial payments each year. I am greatly 
impressed with the dedication and commitment of our employees 
to support our warfighters and I am honored to serve as the 
DCMA Director.
    Since the standup of the Defense Contract Management 
Command in March 1990, except for aircraft maintenance, 
closeout, and vehicle heavy repair, the Agency's contract 
administration services have been primarily focused on weapons 
systems. We have, however, applied our support to battlefield 
service contracts awarded by the military services, largely 
under the Army's Logistics Civil Augmentation Program [LOGCAP], 
and to a lesser extent the Air Force's Contract Augmentation 
Program [AFCAP].
    DCMA does not develop or retain employees with deep 
technical skills in overseeing construction and facilities 
contracts. To perform contract management responsibilities for 
service contracts in Iraq, DCMA relies on obtaining technical 
expertise from the military services in the form of contracting 
officer representatives or support provided by other Department 
of Defense entities.
    Since initiation of Operation Iraqi Freedom and Operation 
Enduring Freedom, DCMA has taken on an increasing role in 
providing contract management services in support of operations 
in the theater. In late 2007 and early 2008, DCMA deployed an 
additional 100 personnel to support the expanded need for 
additional contractor oversight of personnel security contracts 
and various other theater-wide contract activities. We 
anticipate that the total DCMA managed capability in theater 
will be approximately 225 personnel by the end of this year.
    Today DCMA manages contracts in excess of $12 billion, 
supporting 124 forward operating bases and approximately 
350,000 coalition forces and civilian/contractor personnel in 
Iraq, Kuwait, Qatar and Afghanistan. DCMA is currently working 
with the Army on the transition planning for LOGCAP IV, 
ensuring that there is no disruption in logistical support to 
our forces or loss of accountability for the government 
property that we oversee.
    Additionally, DCMA has been working very closely with the 
Joint Contracting Command Iraq/Afghanistan to develop better 
controls of contractor movement in theater via the use of 
Synchronized Pre-deployment and Operational Tracker system and 
on various other contract management needs.
    From a comprehensive agency perspective I think it is 
important to recognize that just as our contingency contracting 
theater mission has grown, our traditional CONUS mission has 
also grown and become more complex. In fiscal year 2001, we 
managed contracts with $100 billion of unliquidated 
obligations, and today that number is $180 billion.
    Balancing these two missions has further stressed the 
already downsized DCMA work force and represents risks on both 
missions. Since fiscal year 1990, DCMA's civilian work force 
has declined by 59 percent to under 10,000 personnel. To 
address our resource requirements, the Agency is working 
closely with the Office of the Secretary of Defense to ensure 
we have the required resources to support the needs of the 
Department.
    I would like to also thank the Congress for passage last 
year of the Defense Acquisition Workforce Development Fund, 
commonly known as Section 852. That fund certainly helped get 
us started down the road.
    Let me close by stating that my assessment during the past 
2\1/2\ months is that we are moving in the right direction, 
collectively in the Department and in DCMA. We have learned 
from the early days of LOGCAP and we continue to learn every 
day. This allows us to identify gaps in our administration 
oversight and continuously revise the processes needed to 
effectively manage the O&M contract requirements.
    In closing, we appreciate the congressional support of our 
efforts as the Department's primary contract management agency 
in providing our nation's warfighters and allies with quality 
products and services. Again, thank you for the opportunity to 
appear before this committee today to address DCMA's role in 
this matter. I look forward to answering any questions the 
committee may have.
    [The prepared statement of Mr. Williams follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Williams.
    Mr. Ernst.

                    STATEMENT OF KEITH ERNST

    Mr. Ernst. Chairman Waxman, Congressman Davis, and 
distinguished members of the Committee on Oversight and 
Government Reform, I appreciate the opportunity to appear 
before you to discuss your concerns about contract management 
and oversight in Iraq.
    Before I begin, I would like to recognize the men and women 
who serve our country and especially the families of our fallen 
heroes for their courage and heart. Our servicemen and women 
and their civilian counterparts lay their lives on the line 
every day and the death of any soldier, sailor, airman, marine, 
or civilian is a tragedy.
    It was my privilege for close to 25 years to work in 
helping to ensure that the military men and women who serve 
this country are provided with the best equipment and services 
possible. From January 2006 until my retirement at the end of 
April, this year, I had the opportunity to serve as both the 
Acting Director and then Director of DCMA. Every member of the 
Defense Contract Management Agency team that I had personal 
contact with during my career take their responsibility to 
support the warfighter very seriously. Those men and women that 
perform this mission in theater in support of our deployed 
members are some of the most motivated people I have ever 
worked with.
    The Defense Contract Management Agency's mission is 
worldwide and complex. DCMA excels at the oversight and 
management of contracts performed in plant environments across 
the globe for a full range of products serviced by the 
military. To be successful in this mission requires that DCMA's 
personnel be proficient not only in the business and financial 
management aspects of the contract but to also have a detailed 
understanding of the technical requirements of the product or 
service being acquired. This technical understanding for in-
plant work is gained through professional classroom training, 
extensive on the job training, and experience. This training 
and experience package allows the quality assurance rep to 
ensure conformance to technical requirements.
    One of the main hurdles to accomplishing the oversight 
mission in Iraq and Afghanistan is that DCMA does not perform 
the technical function this mission requires outside of 
theater. As a result, DCMA does not have a corps of personnel 
with extensive knowledge in the areas of potable water, waste 
treatment, dining facilities, security contracts, or facility 
construction and maintenance.
    The Gansler Commission clearly recognized this issue when 
they recommended that DCMA be provided additional resources and 
be assigned this mission in the continent United States. The 
Commission realized this was necessary in order to gain both 
the training and experience required to excel in the 
performance of this mission. Clearly, either DCMA needs to be 
assigned this mission CONUS with appropriate resource increases 
or those organizations responsible for this mission outside of 
theater needs to accept the responsibility for performance of 
this mission in theater.
    From 2001 to 2008, DCMA's personnel decreased by close to 
25 percent while its mission, as measured by unliquidated 
obligations, increased by nearly 80 percent. Due to the 
Agency's decreasing number of personnel, increasing 
requirements both in-plant and in-theater, and a lack of 
experience in the technical areas required by theater mission, 
DCMA implemented an oversight process in Iraq and Afghanistan 
utilizing an extensive network of contracting officer 
representatives. These individuals are typically members of the 
operational units receiving the services of the contractor and 
are the technical experts that DCMA relies on to help ensure 
conformance to contractual technical requirements.
    The input of these individuals is critical in identifying 
technical performance issues and providing timely feedback to 
the DCMA quality assurance representative for appropriate 
action with the contractor. At the end of April 2008, DCMA had 
over 600 of these CORs providing technical oversight of the 
mission and reporting the results to the QAR responsible for 
overseeing the contractor.
    In closing, I appreciate the support of both the Department 
and the Congress of DCMA's effort as the primary contract 
management agency in providing our nation's warfighters and 
allies with quality products and services. The in-theater 
contract oversight mission is a formidable one. Aspects of such 
a mission, including personnel security and safety, workload 
shifts and dispersion, and personnel placement, are a continual 
challenge.
    During my time as Director of DCMA, I worked to effectively 
balance resource requirements between our core, in-plant 
mission and our contingency contracting mission to ensure that 
the high risk missions in both environments received the type 
of coverage required. Again, thank you for the opportunity to 
appear before this committee today to address DCMA's role in 
this matter and answer any questions the committee may have.
    [The prepared statement of Mr. Ernst follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Ernst.
    Mr. Parsons.

                STATEMENT OF JEFFREY P. PARSONS

    Mr. Parsons. Chairman Waxman, Congressman Davis, and 
distinguished members of the Committee on Oversight and 
Government Reform, I appreciate the opportunity to appear 
before you and discuss your concerns related to injuries and 
deaths associated with electrical issues in Iraq and the 
Department's management and oversight of these contractors 
performing Operation and Maintenance [O&M], of the facilities 
where our military and civilian personnel work and live each 
and every day. Just as the committee is concerned with the 
injuries and deaths that have taken place in Iraq, so is the 
Army.
    Each injury and loss of life is a tragedy and we must do 
all we can to minimize the threats to our personnel. Our 
management and oversight of contractor performance must ensure 
that our contractors are meeting the standards and requirements 
specified in their contracts. To this end, the Army continues 
to pursue and implement many of the recommendations identified 
by the Commission on Army Acquisition and Program Management in 
Expeditionary Operations, which released its final report, 
``Urgent Reform Required: Army Expeditionary Contracting,'' on 
October 31, 2007.
    Why I am here today as the Army witness, I do work for the 
U.S. Army Materiel Command. Our responsibility in the CENTCOMM 
theater of operations primarily consists of management and 
execution of a Logistics Civil Augmentation Program [LOGCAP]. 
This program is managed by the Army Sustainment Command located 
at Rock Island Arsenal, Illinois, a subordinate command of the 
Army Materiel Command.
    Based upon our review of available information, it appears 
that there are a total of 16 deaths resulting from 
electrocutions or other electrical related incidents since the 
inception of our operations in Iraq. The majority of these 
deaths are the result of accidents associated with the conduct 
of military or construction operations, although three and 
possibly a fourth appear to be related to electrical issues 
associated with facilities over a 5-year timeframe.
    The only fatality that we can connect to a facility 
maintained under the LOGCAP III contract is the tragic January 
2, 2008 incident, where Staff Sergeant Maseth was electrocuted 
while taking a shower. Those quarters that he lived in are 
commonly referred to as the RPC. This is a pre-existing Iraqi 
facility occupied by U.S. personnel. The circumstances 
surrounding his death are currently under investigation by the 
Department of Defense Inspector General. I can assure the 
committee that the Army is cooperating with the Inspector 
General and will quickly respond to the Inspector General's 
final report. In addition to corrective actions already taken, 
we will take whatever additional corrective actions are 
required to protect the life, safety and health of our 
personnel.
    At the time of Staff Sergeant Maseth's death in January 
2008, the LOGCAP contract included O&M requirements for the 
facility where the accident occurred. The task order covering 
the O&M of the facilities in the RPC was issued in February 
2007. The specific O&M requirements were jointly developed with 
the customer for the facility in question and commonly referred 
to as Level B. This means the contractor, in this case Kellogg, 
Brown and Root, was only required to provide limited 
maintenance. Limited maintenance does not include routine 
inspections, preventative maintenance and upgrades. Any repairs 
that need to be conducted on the facility are initiated with a 
service request by the customer.
    We are also aware that there were previous contracts for 
the O&M of this facility prior to the task order issued under 
LOGCAP III. The U.S. Army Corps of Engineers awarded three 
previous contracts starting in November 2003 that required the 
O&M of these facilities. Knowing that they were additional 
contracts requiring O&M of facilities in Iraq, we are in the 
process of identifying the scope of their contractual 
requirements. This review should provide us with a holistic 
picture. The electrical issues in Iraq involve more than just 
the LOGCAP III contract.
    As a result of our investigations, we have taken a number 
of corrective actions. We are working with the U.S. Army Corps 
of Engineers to obtain additional expertise in the oversight of 
electrical work by our contractors. Furthermore, we are working 
with the Corps of Engineers, DCMA, and the customer to develop 
a plan to conduct inspection verifications of those buildings 
recently inspected by KBR for life, health, and safety issues. 
We will utilize a third party to validate those inspections.
    The LOGCAP Program Director also met with KBR officials to 
discuss their hiring practices and requirements for 
electricians to include certification requirements. Following 
this meeting, the contracting officer issued a contract 
modification to the LOGCAP III contract on July 21, 2008 to 
more clearly specify personnel and certification requirements.
    KBR was also directed to submit a Trades Certificate and 
Validation Plan to the Government describing the process they 
will use to recruit, train, and retain qualified personnel. The 
plan must address the criteria through which personnel, 
including non-U.S. citizens, will be qualified and/or certified 
as a master journeyman or apprentice, and the proposed schedule 
for implementing the plan. This requirement is also applicable 
to all subcontractors.
    Expeditionary military operations in Iraq and Afghanistan 
have placed extraordinary demands on our contracting system and 
the people who make it work. The vast majority of our military 
and civilian contracting personnel perform well in tough, 
austere conditions. We know that the success of our warfighters 
and those who lead them is linked directly to the success of 
our contracting work force. We are working hard to ensure that 
contracting is a core competency with the Army. We appreciate 
the concerns expressed by the committee and we are aggressively 
moving out to make improvements. I look forward to answering 
your questions.
    [The prepared statement of Mr. Parsons follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Parsons.
    Mr. Heddell.

                 STATEMENT OF GORDON S. HEDDELL

    Mr. Heddell. Mr. Chairman, and distinguished members of 
this committee, thank you for the opportunity to appear before 
you this morning. My name is Gordon Heddell and I am the Acting 
Inspector General for the Department of Defense. The magnitude 
and complexity of the Department of Defense requires nothing 
less than a full time effort. We are in a time of war and our 
work not only saves taxpayer dollars, but also, and much more 
importantly, the lives of U.S. service members.
    To that end, I assure you that we take issues regarding 
safety very seriously. The men and women engaged in Operation 
Iraqi Freedom, whether service members, Federal employees, or 
contractor personnel, deserve an environment that is free from 
preventable dangers. In response to recent concerns regarding 
electrocution deaths of service members in Iraq, my office has 
initiated two complementary reviews.
    The first review, which is still ongoing, is looking into 
the relevant management, contracting, and maintenance actions 
prior to and subsequent to the death of Staff Sergeant Ryan D. 
Maseth, U.S. Army. This review is being conducted at the 
request of the Deputy Under Secretary of Defense for 
Acquisition and Technology in response to inquiries made by 
Representative Altmire, and observations were provided earlier 
this week.
    I want to emphasize and strongly caution that the 
information I provide here this morning is preliminary in 
nature and subject to change. This is an interim response, a 
status report, if you will, not a final report. Just last night 
we received significant information from this committee. This 
was not unexpected, as we work to obtain additional information 
and documentation from various sources leading to our ultimate 
findings and conclusions, which will be contained in our final 
report.
    The second review evaluated the sufficiency of criminal 
investigations involving electrocution deaths of U.S. military 
or Department of Defense related personnel in Iraq. This review 
also sought to glean from the investigative case files 
information concerning the nature of the electrocutions that 
might be helpful in responding to the Deputy Under Secretary 
and to Members of Congress.
    Since March 2003, there were 16 electrocution fatalities in 
Iraq. Fifteen of those were military members and one Defense 
Department foreign national civilian employee. We determined 
that investigations conducted by the U.S. Army Criminal 
Investigation Command and the Naval Criminal Investigative 
Service accurately determined the nature and cause of death in 
each instance. We also found that these 16 electrocutions can 
be attributed to a variety of causes. This includes 
electrocution deaths caused by contact with power lines, 
ungrounded and/or faulty electrical equipment, and working with 
electrical equipment or attempting to make an electrical 
repair.
    Based on the investigations reviewed, we are concerned that 
Iraq's infrastructure continues to pose a significant hazard to 
U.S. personnel in-country. This is due to poor design, inferior 
construction standards, a failure to upgrade electrical 
systems, and systems that are not properly grounded.
    Let me once again assure you, my office takes the safety of 
our men and women serving in Iraq, and elsewhere, very 
seriously. We have additional work to perform, and we will keep 
you aware of the progress of our efforts regarding the death of 
Sergeant Maseth. We extend our sympathies to the family of 
Sergeant Maseth, and to his friends, and to other individuals 
and families of others that have been involved in these very, 
very unfortunate and tragic incidents. I appreciate the 
opportunity to appear before you today, and I am ready to 
answer any questions you might have.
    [The prepared statement of Mr. Heddell follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Heddell.
    Mr. Horstman.
    Mr. Horstman. I have no opening statement, Mr. Chairman.
    Chairman Waxman. Mr. Bruni.

                   STATEMENT OF THOMAS BRUNI

    Mr. Bruni. Thank you, Mr. Chairman. My name is Thomas 
Bruni. I am the Theater engineer and construction manager for 
KBR in Baghdad in support of United States and Coalition 
troops. I am here today to assist the committee in its inquiry 
regarding the maintenance of electrical systems in facilities 
occupied by U.S. military and contractor personnel in Iraq.
    I would like to begin my remarks by expressing on behalf of 
KBR our deepest sympathy to all of the families and friends who 
have lost loved ones. It is important to honor these soldiers 
by examining the circumstances surrounding their untimely 
deaths, and KBR is completely committed to assisting in this 
process. From everything we presently know, KBR's actions were 
not the cause of any of these terrible accidents, however, I 
hope that my testimony today will help the committee answer its 
questions about this important issue.
    I am a civil engineer and a former member of the U.S. 
Marine Corps and the Army National Guard. I have also served as 
the director of Engineering for Northeastern University and as 
the director of Capital Projects Management for Boston College.
    I first joined KBR in 2005 as a Deputy Project Manager in 
Al Anbar Province. I am now the Theater Engineering and 
Construction Manager.
    KBR is one of many contractors providing support to United 
States and Coalition personnel in Iraq. The current environment 
in Iraq presents unique maintenance challenges. Many U.S. 
military personnel and contractors currently occupy facilities 
that were built during Saddam Hussein's reign and contain 
inferior electrical and other systems compared to U.S. 
standards. KBR is, therefore, even more acutely aware of 
electrical safety concerns.
    A number of electrical shock incidents have recently gained 
attention in the media and in Congress. There are media reports 
that as many as 15 soldiers have been killed by electrical 
shocks in Iraq. These reports have contained a number of 
factual errors and inaccuracies. The reality is that KBR's 
actions were not the cause of any of these terrible accidents. 
In fact, only one of the 15 incidents even occurred at a 
facility where KBR had maintenance responsibility. And I would 
like to describe KBR's current understanding of that incident.
    KBR had, as directed, maintenance responsibilities at the 
Radwaniyah Palace Complex [RPC], where a soldier died from an 
electrical shock in January 2008. RPC, which consists of 
roughly 200 buildings, was built and controlled by Saddam 
Hussein's regime until occupied by the U.S. military. The 
military had assigned Staff Sergeant Ryan Maseth to live in a 
small, one-level building at RPC, now known as LSF-1, with 
another Army staff sergeant and an Iraqi interpreter.
    At the time that KBR was first tasked with any maintenance 
for this building in 2006, all of the electrical systems and 
equipment had already been installed, though KBR does not know 
when or by whom. KBR's maintenance responsibility at that time 
was limited to repairs only at the direction of the Army.
    It is important to understand how the Army categorizes 
maintenance responsibilities. Under LOGCAP, the Army directs 
KBR to perform different levels of maintenance service. In some 
facilities, KBR provides Level A maintenance service, in which 
KBR is authorized to perform maintenance and repairs without 
specific instructions from the Army. In other facilities, KBR 
provides Level B maintenance service performing repairs only 
when specifically directed to do so by the Army. The decision 
to classify any building at a specific level is a decision made 
by the Army, at its own discretion.
    In February 2007, KBR conducted a technical inspection of 
LSF-1. Under LOGCAP, KBR conducts such inspections to assess 
the conditions of a building, and the Army determines the level 
of service required for that building. For LSF-1, the Army 
directed KBR to provide Level B service. Therefore, KBR was not 
authorized to perform repairs without specific direction from 
the Army.
    This February 2007 technical inspection identified a number 
of electrical deficiencies. However, the Army did not authorize 
KBR to repair the identified electrical deficiencies. In 
November 2007, at the Army's request, KBR again produced the 
same February 2007 technical inspection. Once again, the Army 
did not authorize KBR to make the repairs.
    It is my understanding that the Army now believes that 
Staff Sergeant Maseth's death was the result of a 
malfunctioning water pump on the roof of his building. Though 
we cannot be certain who installed the water pump, we do know 
that KBR did not do so, and that it was most likely Iraqi-
installed. We have been told that the water pump contained 
camel-hair string in place of Teflon tape, which is a practice 
frequently used by local Iraqi workers.
    Finally, at the direction of the Army, KBR has subsequently 
performed additional inspections in the LSF-1 building, as well 
as other buildings throughout RPC. KBR has also conducted at 
the Army's direction, inspections of all occupied hard-stand 
structures in Iraq.
    As I have described, KBR views safety as a top priority and 
will continue to pursue the highest level of safety throughout 
Iraq. I hope that my testimony has aided the committee in 
understanding these issues, and I will do my best to answer any 
questions you may have.
    [The prepared statement of Mr. Bruni follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Waxman. Thank you very much, Mr. Bruni.
    We will now have questions from members of the committee. I 
will start off.
    I want to ask about the death of Staff Sergeant Ryan 
Maseth. He was a highly decorated Army Ranger, a former Green 
Beret, killed in January of this year while taking a shower. 
Army investigators determined that he was electrocuted. Both 
the Defense Department and KBR have said they had no knowledge 
of any electrical problems that resulted in his death, and that 
they didn't know of any in that building.
    Mr. Heddell, you are the Acting Defense Department 
Inspector General, and your office issued an interim memo on 
Monday stating that you had ``no credible evidence'' that 
either KBR or Defense Contract Management agency knew of these 
problems. And I would like to ask you about some documents the 
committee obtained that you did not or may not have.
    First, the committee obtained a work order. This is a work 
order from July 8, 2007 that was submitted by Sergeant 1st 
Class Justin Hummer.
    Sergeant Hummer lived in the exact room before Staff 
Sergeant Maseth moved into it, and Sergeant Maseth replaced 
Sergeant Hummer in October 2007. So they both used the exact 
same shower. This work order seems to indicate that Sergeant 
Hummer warned of exactly the electrical problem that killed 
Sergeant Maseth, and I think we furnished you with a copy of 
it. It says LSF. That is the building they lived in, ``pipes 
have voltage, get shocked in shower,'' and on the bottom, you 
can see it says, ``Kellogg Brown & Root Proprietary Data.''
    Mr. Heddell, on its face, this document seems to be 
credible evidence that KBR was aware of this hazard last July; 
do you agree?
    Mr. Heddell. I do agree with you, Mr. Chairman.
    Chairman Waxman. Were you aware of this document before you 
issued your interim memo on Monday?
    Mr. Heddell. No, sir. I was not.
    If I could, Mr. Chairman, I just want to make a correction 
for the record.
    Chairman Waxman. Well, let me ask you about some of the 
questions that I have and then we will give you an opportunity 
to do that. I want to show you another document. This is a 
spreadsheet of task orders that the Defense Department provided 
to the committee. And this spreadsheet lists the same work 
order from July 8, 2007 warning that Sergeant Hummer gets 
shocked in the shower. Mr. Heddell, this document seems to be 
credible evidence that the Defense Department was aware of this 
problem as well. Do you agree?
    Mr. Heddell. It would appear so, sir.
    Chairman Waxman. And finally, Mr. Heddell, let me show you 
a sworn statement signed by Sergeant Hummer.
    On June 6, 2008, in this statement, Sergeant Hummer says 
this wasn't the only work order he submitted. He says, he was 
``shocked four or five times in the shower,'' between June 
2007, when he first moved into the building, and October 2007, 
when he moved out, and Staff Sergeant Maseth replaced him.
    Mr. Heddell, I know your memo was not a final product, the 
memo you issued yesterday. You said it was interim. It was a 
snapshot of what you learned to date, but someone leaked the 
document last night, and the press reported you absolved KBR 
and the Defense Department of any knowledge of this problem or 
any responsibility for fixing it. Given these new documents, do 
you stand by the statement in your memo, or would you like to 
go back and review them in light of this new information?
    Mr. Heddell. Well, there is nothing really to change, Mr. 
Chairman. My position has never been to absolve anyone of 
responsibility or culpability. What we provided to your office 
on Monday of this week, sir, and to this committee, and also to 
the Secretary of Defense, was a status, meaning our preliminary 
observations of what we have found up to that point. It is not 
a report and it was simply a status. A final report will be 
forthcoming.
    Chairman Waxman. Well, I am concerned, Mr. Heddell, because 
it seems like you have less information than the committee. It 
raises the question of whether you were doing your job, or 
whether the Defense Department or KBR officials were 
withholding information from you. And as our investigation 
continues, we are going to need answers to these questions. And 
I presume you are going to need answers to these questions, as 
well.
    Mr. Heddell. Absolutely, Mr. Chairman. I can't presume to 
tell you whether information was withheld. I can only tell you 
what we knew up until Monday when we provided the committee 
with an idea of what we were going to be testifying to today.
    I will tell you, you don't have to be an Inspector General 
to be very concerned about these tragic deaths, and you don't 
have to be an Inspector General to expect candor and 
forthcoming from entities who might have knowledge or 
information regarding this. I am not saying that anyone 
withheld, but what I am saying at this point, these documents 
that you brought to my attention this morning, I had not seen 
these, was not aware of them, until this committee brought them 
to our attention last night, I believe it was. They are 
certainly very dramatic, and they certainly are documents that 
we will have to spend a lot of time looking at. We anticipate, 
as we have even before this committee was announced for this 
hearing, that we would find a lot of additional information, 
Mr. Chairman, and we think that we will.
    Chairman Waxman. Well, I appreciate that. And these new 
documents do undermine the tentative conclusion you submitted 
to us earlier this week.
    Mr. Heddell. Well, we have absolved no one, let the record 
be clear on that, never have and have not at this moment.
    Chairman Waxman. Thank you very much.
    Mr. Issa.
    Mr. Issa. Thank you, Mr. Chairman. Mr. Heddell, I would 
like to continue, we are the Committee on Oversight and Reform, 
and I always try to remember that we look at the reform part of 
this.
    When we look at this contract, or any contract that 
essentially says, take somebody else's work and maintain it, 
and that work is not essentially up to U.S. standards, or even 
comfortable at U.S. standards in voltage, in plugs, and so on, 
are we inherently producing a contract that puts us, and I ask 
Mr. Bruni too, aren't we, and I am leading a little bit, but 
aren't we inherently, if we limit a contract to that and we 
don't have a separate oversight who does a clean bill of health 
on the structure and the equipment, aren't we inherently 
handing something off that has a gap in its safety and 
reliability?
    Mr. Heddell. Well, with all due respect, Congressman, I 
understand what you are saying, and in principle I agree with 
that, but when you look at the system, for instance, the 
contract that was in play in this particular instance, and the 
process that was set up, the relationship process, let's say, 
between the contractor, KBR, and the contract administrator, 
DCMA, there are hoops that have to be jumped through, that have 
to be looked at and acknowledged, and the customer, as Mr. 
Parsons referred to it, being the Army in this case, they have 
to bring items to the attention of appropriate people and then 
things begin to happen, changes are made, and therefore. I 
think everyone that is in Iraq, soldier, contractor, civilian, 
deserves the feeling that they are being protected.
    Mr. Issa. OK. Well, Mr. Parsons, maybe I will go to you 
next because somebody died who, based on the contracts this 
committee has, should not have died because there were warnings 
based on this document that should have caused a look for, why 
are there shocks to somebody in a shower. When you are dealing 
with high voltage there is no question that is not a small 
what-if.
    So when we look at the contract and the command structure 
because, of course, these people worked for commissioned 
officers, NCOs and commissioned officers, where was the gap 
that allowed this to happen in your opinion? Granted I am 
asking you to Monday morning quarterback, but this committee 
needs to make sure that procurement going forward doesn't have 
these loopholes in it.
    Mr. Parsons. Sir, I would say, from my personal opinion, 
that it goes back to what is the requirement? And in this case, 
through the requirements determination process, it is clear 
that the customer, in this case it would have been 
Multinational Corps Iraq, and the mayor, the local mayor that 
is responsible for that RPC Complex, had done some 
prioritization on what buildings were going to get what level 
of maintenance. In this case they elected to Level B, which 
does not require routine inspections and preventative 
maintenance. I can't tell you why that decision was made.
    Mr. Issa. OK. Well, let's go back through the command 
structure for a moment. The chairman is taking one line, but I 
am not going to take a different line in this case because 
people died, a person died who shouldn't have died. I am a 
former Army officer. Somebody had to look out for the well-
being of every soldier, every soldier's weapon, every soldier's 
equipment. Who was that somebody, and what did that person do 
to ensure that living condition was safe?
    Mr. Parsons. Sir, in my opinion, the mayor of that RBC 
Complex is ultimately the one that has to make the calls on 
those types of things, or what repairs are going to be affected 
and executed, and I can't tell you, I think the DOD IG is 
taking a look at that entire process. I think you are right, 
there probably are some gaps that need to be examined.
    Mr. Issa. OK. I am a little disappointed, but let me go 
back to Mr. Heddell for just a second. Can you come back to 
this committee, because I don't believe you are prepared to 
answer today and tell us within the command structure that says 
no uniformed soldier shall ever not have a chain of command 
that includes uniformed superiors, can you tell us today, or by 
written backup, who that was? Who was responsible?
    And with all due respect, Mr. Parsons, I am not here to 
blame KBR, because it appears as though their contract was 
fairly limited, and it doesn't appear as though they were 
tasked properly. Mr. Heddell, I need to know what soldier was 
responsible for that soldier, and if it was a mayor, and I 
assume this is an Iraqi mayor--it was a U.S. mayor?
    Mr. Parsons. Let me correct you. The military units 
appoint, make their mayors, it is a term that is used for 
their--it is equivalent to----
    Mr. Issa. OK. It was a commissioned officer?
    Mr. Parsons. I am not sure. I can't answer whether it was a 
commissioned officer or not.
    Mr. Issa. For the record, because I am out of time and I 
want to be respectful of the committee's time, I would like to 
know the chain of command, because as a former Army officer, 
and I appreciate the chairman's indulgence for just a second, 
we need to know that the chain of command met its 
responsibility for the health and safety of its personnel. And 
that includes obviously the procurement irregularities that may 
or may not have occurred, but we have to understand who was 
responsible for that person's welfare.
    Today, that is not really what we are talking about. I 
don't want to look at an electrician who did or didn't get a 
task order. I want to look at the chain of command and did it 
do its job, and if there are changes that we need to make, or 
the House Armed Services Committee needs to make, we need to 
provide that guidance. So I hope you will respond for the 
record, and I hope other Members will perhaps pick up if you 
have answers. I thank the chairman for his indulgence.
    Chairman Waxman. Thank you, Mr. Issa.
    Mr. Higgins.
    Mr. Higgins. Thank you, Mr. Chairman.
    Mr. Bruni, I would like to ask you about Staff Sergeant 
Maseth, who was electrocuted on January 2, 2008. In your 
written testimony today, you state that KBR wasn't allowed 
under contract to make repairs to Staff Sergeant Maseth's 
building without specific direction from the Army. You also say 
that the Army did not authorize KBR to make these repairs. And 
then, you address the water pump that electrocuted Staff 
Sergeant Maseth. You said, ``Though we cannot be certain who 
installed the water pump, we do know that KBR did not do so.'' 
That is your testimony; correct?
    Mr. Bruni. Yes, sir. It is.
    Mr. Higgins. The committee has obtained documents that seem 
to suggest that KBR may have installed the faulty water pump. 
Let me go through these documents and ask you about them. 
First, we have already talked about the work order submitted by 
Sergeant Justin Hummer, who lived in the same quarters before 
Staff Sergeant Maseth moved in. Let's put that up there. If you 
recall, this work order warned that the pipes have voltage and 
that he was getting shocked in the shower. This was the same 
shower that Staff Sergeant Maseth was subsequently 
electrocuted. Have you ever seen this work order before?
    Mr. Bruni. Yes, sir. I have.
    Mr. Higgins. OK. Let me show you another work order. This 
one is from the next morning on July 9, 2007. You can see that 
it is the same building. It is the same person, Justin Hummer. 
He signed it at the bottom. And when you look at the task box, 
it says, ``Replace pressure switch and water pump.'' And when 
you look at the labor box, it says, ``3 x 3,'' meaning three 
people worked for 3 hours, and you can see the total of 9 
hours. And then, when you look at the material box, there are 
various items, and over on the right, you can see one says, 
``One water pump.'' This work order is stamped finished at the 
top. Does this mean that KBR installed the water pump that 
malfunctioned that caused Staff Sergeant Maseth's death?
    Mr. Bruni. No, sir. It does not. We believe that this 
particular installation occurred not at LSF-1, but at another 
building. There is another document that says that the pump and 
switch were located on the eastern side of the building. The 
pump unit for LSF-1 is on the roof. We believe that this work 
was accomplished in another building. Sergeant Hummer placed a 
service order request for more buildings than just LSF-1.
    Mr. Higgins. Why would Sergeant Hummer request a 
replacement of the water pump for other buildings other than 
the one he was staying at?
    Mr. Bruni. Because he wrote work orders, Mr. Congressman, 
for other buildings, not just LSF-1.
    Mr. Higgins. I see. Well, this work order says, time 
started, was July 9, 2007, 0800 hours, and it says, time 
completed was the same day at 1100 hours. Does that indicate 
that they actually did the work on the day of those 3 hours?
    Mr. Bruni. Yes, sir. It would appear that it was 
accomplished on that day.
    Mr. Higgins. This is Sergeant Hummer's declaration stating 
that, ``During the months that I was living at the LSF Advisor 
Building, I was shocked four or five times in the shower, the 
same shower where Staff Sergeant Ryan Maseth was 
electrocuted.'' That is Sergeant First Class Justin Hummer.
    Mr. Chairman, KBR's spokeswoman, Heather Brown, has stated 
publicly that there is no evidence of a link between KBR's work 
and these electrocutions. Her statements appeared in various 
press accounts on July 18th. To me, this document raises 
serious questions about KBR's work, and it appears to 
contradict not only Mr. Bruni's testimony but the public 
statements KBR's officials have made for weeks on this issue. I 
yield back.
    Chairman Waxman. Thank you very much, Mr. Higgins.
    Mr. Davis.
    Mr. Davis of Virginia. Thank you very much. Let me start 
with the Army. Mr. Parsons, an initial cost estimate was 
requested to refurbish the Palace Complex, as I understand it, 
where the Maseth tragedy occurred, and it would have brought 
the facilities up to LOGCAP standards, which was $10 million. A 
second estimate was done for Level B maintenance, but under 
Level B, facilities were taken and it would reduce the price to 
$3 million. Is that right?
    Mr. Parsons. Sir, I have heard about the first estimate 
before. I have not seen anything to verify that estimate was 
actually produced.
    Mr. Davis of Virginia. OK. But they went with Level B, is 
that right?
    Mr. Parsons. It was for the entire RPC area, for the 
maintenance of the RPC area?
    Mr. Davis of Virginia. Yes, they went with the Level B 
instead of a whole refurbishing. Is that fair to say, LOGCAP 
standards?
    Mr. Parsons. Sir, I am not sure that I follow you, but the 
actual estimate again was negotiated between the LOGCAP program 
office and the contractor, including the customer, to determine 
what level maintenance was going to be required.
    Mr. Davis of Virginia. So, the customer in this case--was 
KBR involved in that? Would they have been negotiating that?
    Mr. Parsons. KBR was involved from the standpoint that they 
were preparing the price estimate in response to what the 
requirement was.
    Mr. Davis of Virginia. Would the requirement have included 
making this basically shock-proof, the showers there?
    Mr. Parsons. Not for this particular facility, because this 
particular facility was designated, as I said before, as a 
Level B, which did not require any upgrades or repairs.
    Mr. Davis of Virginia. Right. Now, but there had been 
previous reports of people being shocked there, hadn't there?
    Mr. Parsons. Based on, previously? Before the LOGCAP 
contract?
    Mr. Davis of Virginia. Yes.
    Mr. Parsons. Yes, were under the impression that there were 
some electrical issues identified with that building.
    Mr. Davis of Virginia. So why would you go with the Level 
B?
    Mr. Parsons. Sir, I can't answer that question.
    Mr. Davis of Virginia. Who would have made that decision?
    Mr. Parsons. It would have been again the mayor's cell, 
which again, is not an Iraqi mayor. It is the unit that 
occupied that RPC Complex.
    Mr. Davis of Virginia. And what unit? Who is the person, do 
you know?
    Mr. Parsons. What?
    Mr. Davis of Virginia. Who is that?
    Mr. Parsons. I am not sure who that is, sir.
    Unidentified Speaker. Colonel in the command structure.
    Mr. Parsons. It would have been someone from the Multi-
National----
    Mr. Davis of Virginia. It is Colonel, we don't know his 
name in the command structure.
    Mr. Parsons. Do not.
    Mr. Davis of Virginia. Can you get that to us, and get that 
to the committee?
    Mr. Parsons. Yes, we will take that further.
    Mr. Davis of Virginia. Is risk mitigation a factor when you 
decide how much to spend and what level maintenance to provide?
    Mr. Parsons. Sir, I think the risk mitigation is always a 
factor when they decide what the requirement is going to be, 
and I can only assume in this case that there was some of that 
going on when they determined what level of maintenance was 
going to be required for the different facilities.
    Mr. Davis of Virginia. Are the operational commanders who 
are using the services of contractors fully informed about the 
levels of risks they are taking on by opting for less than full 
Level A maintenance?
    Mr. Parsons. Sir, I can't answer that question. I don't 
know how far down that information flows. So I would say that 
the mayor, who is responsible for that RPC, certainly knows the 
risks associated with the different level of maintenance. How 
that is flowed down from there, I cannot tell you.
    Mr. Davis of Virginia. Let me ask, Mr. Bruni, who is to 
blame for this? Is KBR to blame?
    Mr. Bruni. Sir, I do not believe so. No, sir.
    Mr. Davis of Virginia. Is the Army to blame?
    Mr. Bruni. Sir, I don't know if it is that simple, a black 
and white case.
    Mr. Davis of Virginia. Well, if it is not the Army, and it 
is not KBR, then who could it be?
    Mr. Bruni. Sir, all I can tell you is that from the KBR 
perspective, we don't understand what tactical or force 
protection issues may have been required to be factored into 
the Army's decision in this decisionmaking process. We don't 
know.
    Mr. Davis of Virginia. Well, whatever decision was made, 
you would agree that someone shouldn't turn on the shower and 
get electrocuted, wouldn't you?
    Mr. Bruni. I would agree that is not something that should 
have happened. Yes, sir.
    Mr. Davis of Virginia. Yes. And particularly, if there were 
previous reports of people being shocked in the shower? It is 
not like this was without warning?
    Mr. Bruni. Yes, sir.
    Mr. Davis of Virginia. So, under that scenario, if KBR, as 
you maintain, is not to be blamed, who else could you possibly 
blame for this? Wouldn't it be the Army? I am not trying to 
focus on any individual in the Army. We don't even know the 
Colonel's name who was making these decisions. But wouldn't it 
be fair under that to say that the Army would be responsible?
    Mr. Bruni. Sir, even if the Army had----
    Mr. Davis of Virginia. I am just asking you a question. 
Wouldn't the Army be responsible? Or do you think the soldier 
should be responsible for taking a shower?
    Mr. Bruni. No, sir. It shouldn't be the soldier.
    Mr. Davis of Virginia. OK. Should it be the Army?
    Mr. Bruni. I think that the Army could have turned the 
situation differently.
    Mr. Davis of Virginia. Well, it surely could have. In 
retrospect, they should have. So aren't they responsible? I 
know they are a client and you are looking for more contracts, 
but you are saying you are not responsible. I can understand 
that. Wouldn't the Army then be responsible for this in one 
way, shape or form?
    Mr. Bruni. I think that the Army has some responsibility in 
this. Yes, sir.
    Mr. Davis of Virginia. Well, if they have some, who would 
have the rest of it? Just conceivably, who else could have it, 
if the Army just has some responsibility? Would KBR have some 
then?
    Mr. Bruni. The responsibility lies with the Army.
    Mr. Davis of Virginia. That is all I am asking to just try 
and figure it out. Nobody is dodging. This is a tragic case. 
Let me ask, Mr. Parsons, of the 16 electrocutions, how many 
occurred on KBR-managed facilities?
    Mr. Parsons. Sir, our understanding, and based on records 
that we looked at, only one was connected to a KBR-maintained 
facility.
    Mr. Davis of Virginia. Now, that was the Maseth death, OK.
    Chairman Waxman. Thank you, Mr. Davis.
    Ms. McCollum, you are recognized for 5 minutes.
    Ms. McCollum. Thank you, Mr. Chair.
    Mr. Parsons, you made a comment in your testimony on page 6 
that I find absolutely remarkable. You say that ``neither 
LOGCAP nor DCMA have sufficient skill set or expertise to 
perform adequate oversight of electrical work being performed 
by KBR.'' Then you say, we are trying to acquire the expertise. 
My question to you is, who has been overseeing KBR's electrical 
work for the past 5 years?
    Mr. Parsons. Ma'am, as Mr. Ernst testified earlier in his 
opening statement, for those LOGCAP contracts, DCMA has been 
providing quality assurance oversight, which really focuses on 
the contractors' processes. They focus on whether the 
contractor has the right QA processes in place. They aren't 
doing actual inspections.
    Ms. McCollum. I am hearing processes. I want to know who 
was going in, and looking, and inspecting KBR's electrical work 
for the past 5 years?
    Mr. Parsons. Again, for the technical inspections, they 
rely on what we call contracting officer representatives, which 
are appointed in each of the Units. Those are the individuals 
that have the subject matter expertise to provide that type of 
level of oversight.
    Ms. McCollum. Mr. Parsons, I am going to move on, but you 
have already said that there was no one available with that 
type of expertise. The DCMA and the Army have responsibility 
for, the ultimate responsibility is what you are saying, 
through all of these subcontracting, and whatever that they 
did, to oversee KBR's work. Your statement that you don't have 
the expertise to oversee the job adequately basically said that 
no one in our Government was taking on the responsibility of 
making sure that the safety of our troops was being looked at 
and handled quickly.
    In my opinion, that is just strictly deplorable. And it is 
astounding how dependent our military has become on private 
companies, that they just don't have the can-do, I can do it 
myself, as past military had had where they could call on 
people directly to take care of things.
    Now, in Staff Sergeant Maseth's building, there were work 
orders to fix the electrical problems for his shower. And here 
is a sworn statement on June 6, 2008, by the individual who 
lived in the building who used this shower before Staff 
Sergeant Maseth. His name is Sergeant Justin Hummer. And he 
stated, ``During the months I was living in the LSF building, I 
was shocked four or five times in the shower, the same shower 
where Staff Sergeant Maseth was electrocuted.''
    He said on one occasion he had to use a wooden spoon. If 
you are bringing wooden spoons to the shower, it is telling 
something that our servicemen knew that there was a big problem 
here, because the electrical current was so strong. He stated 
that in response to each work order, personnel from KBR showed 
up, but the problems persisted. He said his roommate even 
submitted a work order for these problems. According to 
Sergeant Hummer, he made these requests over and over and over.
    Mr. Parsons, KBR never adequately addressed these problems, 
did they? And, the fact that maybe they had work orders for 
another Unit that was faulty doesn't mean that there aren't 
work orders that exist that were generated by Sergeant Justin 
Hummer. Can you work to provide the committee with these work 
orders, because obviously we are missing some?
    Mr. Parsons. Ma'am, with this new information that we have 
received, we will work with the Department of Defense IG to 
look and gather more of the work orders.
    Ms. McCollum. Well, the fact that we don't have the work 
orders for something that was pretty specific in what this 
committee was going to be dealing with, with the death of one 
of our servicemen, is a little astonishing. So obviously, we 
are not going to find work orders stamped fixed after four or 
five times Sergeant Justin Hummer requested the shower be 
fixed.
    My question is, basically, where was the Government in all 
of this? I heard you folks refer to customers. A customer is 
someone who has a choice of where to go shopping for their cell 
phone. A customer is not a soldier who is going in to take a 
shower. That soldier does not have a choice. But we have a 
responsibility. So, did anyone ever go out and check and see if 
KBR did what it was supposed to do? Your quality assurance 
officials, where were they?
    Mr. Ernst. Congresswoman, let me try to answer that again, 
what Mr. Parsons had said. As I stated in my opening statement, 
we do not have the requisite skills to see facilities and 
maintenance oversight. We are assigned that mission in theater 
by the Department. In order to bring the kind of skills that we 
lack, we work with the service units themselves to bring the 
technical experts that have the kind of skills required to 
oversee it. I don't have the specifics in this instance. We 
would have to go back and take a look at the report from the 
COR, to see if there were reports from the COR on the ground to 
the----
    Ms. McCollum. Thank you.
    Mr. Chairman, I want to thank Chairman Waxman for having 
these hearings. And we have had hearings on the U.S. Embassy 
and all of the shoddy work that is going on there, as well. We 
don't want State Department and other people being 
electrocuted. And I am glad that you are going to produce the 
work orders that Sergeant Justin Hummer had put in four or five 
times.
    Thank you, Mr. Chair.
    Chairman Waxman. Thank you, Ms. McCollum. Mr. Bilbray, you 
are recognized for 5 minutes.
    Mr. Bilbray. Thank you, Mr. Chairman. I yield to Mr. Issa 
for a moment.
    Mr. Issa. I thank you. I will be very brief.
    Mr. Horstman, are you a military veteran?
    Mr. Horstman. Yes, sir. I am.
    Mr. Issa. What were you in, what branch?
    Mr. Horstman. I was in the Navy for 26 years.
    Mr. Issa. OK. Commissioned officer?
    Mr. Horstman. Yes, sir.
    Mr. Issa. OK. Well, that means that I have six people here 
who are all military veterans, Air Force, Army, Navy. I am 
sorry, I had you listed as Air Force Reserve. OK, well then, I 
will leave you out of this.
    I put my hat on for a minute while I was waiting for the 
young lady's comments to end, which were good. As Lieutenant 
Darrell Issa, or Captain Darrell Issa, I had to ask the 
question, how dare any of us think that the first mistake 
wasn't a Sergeant reporting a near electrocution four times, 
and the command structure didn't close down that shower, 
including maybe that whole facility until it was clarified.
    Now, for those who served, please answer just a quick 
question, do any of you know a good reason that the immediate 
chain of command didn't take that action until it was corrected 
for the safety of that Sergeant, forgetting about the work 
order? KBR, don't answer as a contractor, answer as a former 
military person, isn't the first responsibility of the 
immediate commander who has the authority to say, I can't have 
that guy in that shower? I have to have him showering down the 
hall, or be in a different barracks. Do any of you disagree 
with that at all here?
    Mr. Horstman. No, I don't.
    Mr. Issa. Thank you very much.
    Mr. Bilbray, thank you. I yield back.
    Mr. Bilbray. Thank you.
    Let me first clarify that the gentlelady was concerned 
about the issue of contracting out a lot of these services. 
Well, let me say this as somebody who represents one of the 
largest concentrations of military service individuals in the 
entire world. There are going to be these contracts and they 
are essential. You can't ask and nor do they want to 
participate in having sworn service members issuing towels at a 
gym or doing a lot of these maintenance work that we have been 
contracting out since we sent contracts out to build the forts 
in the West.
    But that aside, we have over 100,000 service personnel in 
Iraq today. As somebody who comes from being a mayor, and a 
council member, and a county chairman, it is not brain surgery 
to know how to set up a building inspection system where the 
unified building code is enforced. The most successful 
Government regulation ever comprised in the world is a unified 
building code.
    Are we saying, Mr. Parsons, we don't have somebody on 
staff, or on contract, and probably contract, that has a 
background as a building inspector would be required in a city, 
which has practical, not book learning, doesn't come out of 
college, but has experience in the field that they are 
inspecting? Do we have on staff, or on contract, preferably 
contract, former electricians who now function as the building 
inspector for electrical work?
    Mr. Parsons. Sir, we are in the process of working with the 
theater, with Multi-National Corps-Iraq, to do exactly that. 
They have brought in some Seabees. They have brought in some 
Air Force Red Horse teams with those types of engineers. Army 
Corps of Engineers is also going to be sending some of those 
types of experts to help do that type of thing that you were 
talking about with the inspections of the buildings to really 
understand what the safety issues are with them.
    Mr. Bilbray. Well, Mr. Bruni, work in the United States, 
when you go in and put in a pump, put in an electrical system, 
isn't it traditional that before the job is done, you get a 
sign-off from a Building Inspector?
    Mr. Bruni. Yes, sir. You pull a permit.
    Mr. Bilbray. And who does the sign-off when you are in 
Iraq, and you finish putting in an electrical system? Who signs 
it off?
    Mr. Bruni. If there is a QAR available and assigned to that 
task, he will do that.
    Mr. Bilbray. And that QAR has the background as a trained 
electrician who has experience in the field that they are 
inspecting?
    Mr. Bruni. I can't vouch to that. No, sir. I do not know.
    Mr. Bilbray. OK. Mr. Bruni, just let me tell you flat out, 
if you are going to look for the Seabees, if you are going to 
look for the engineers, you are going to look for in-house 
operations. It doesn't take brain surgery to contract former 
Building Inspectors and bring them out on short-term contracts 
to be able to get this job done. We are doing contractors, and 
that is why I disagree with the gentlelady that, this ought to 
be all in-house.
    The ability to grab somebody who has experience doing this 
all over America, has been doing it for 20, 30 years, and be 
able to spot the fact that a ground was not properly grounded, 
is not brain surgery to these guys who have the experience. I 
know those of us that haven't worked in this field, it is 
magic. But what I am concerned about is, there is not a city in 
this country, at 10,000, 15,000, that doesn't have the ability 
to have a building inspector check out an electric system 
before the switch is allowed to be thrown. Why can't we do the 
same operation in a facility, or an operation in Iraq, that has 
over a 100,000 personnel out there that we need to protect?
    Mr. Parsons. Sir, I don't think there is anything to 
prevent us from doing that. That is one of the things I believe 
Major General McHale has been tagged by General Petraeus in the 
Multi-National Corps to get his arms around. He is looking at 
the different options that he has to bring those type of 
companies and personnel into theater to do those types of 
inspections. And we are working closely with Defense Contract 
Management Agency.
    Mr. Bilbray. Is it a policy today that the unified building 
code will apply unless it is waivered? Is that a policy for 
our----
    Mr. Parsons. Can you repeat that sir?
    Mr. Bilbray. Does the unified building code apply to all 
projects, all construction in Iraq, unless those codes are 
waived, or are those not even considered?
    Mr. Parsons. Sir, my understanding is that there are 
various codes that are being used. Again, one of the charges to 
General McHale is to come up with a unified standard that will 
be used by troops, and by all contractors.
    Mr. Bilbray. Mr. Chairman, I appreciate the time, it is 
just that you know and I know that the entire United States, 
almost every municipality and every Government agency, and 
every contractor uses the unified building code as the 
universal consensus. I don't see why we have to reinvent the 
wheel.
    And I yield back.
    Chairman Waxman. Thank you, Mr. Bilbray.
    Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. Well, in fact, we had 
somebody inspecting those things. In 2008, after the death of 
Staff Sergeant Maseth, KBR conducted a complete electrical 
inspection of all the buildings in the Radwaniyah Palace 
Complex where the Sergeant lived. The inspection found that a 
majority of the electrical systems are in complete disarray, 
that a majority of the electrical panels are in disrepair and 
require replacement, and that 45 water pumps needed to be 
replaced because of electrical shortage or age.
    These problems were so severe that KBR's own site manager 
recommended that service members immediately evacuate six 
buildings. We have a copy of this recommendation from KBR to 
the Army, and let me read it to you.
    ``The electrical conditions in all buildings make them 
uninhabitable for safety and health reasons. The recommended 
course of action, if the buildings will continue to be used, is 
to disconnect the power to the buildings immediately and 
completely replace the electrical systems.'' Now, Mr. Bruni, 
why didn't KBR recommend evacuating the troops from these 
buildings when they were inspected in 2007?
    Mr. Bruni. I am sorry, sir. I couldn't hear you. Could you 
repeat that please?
    Mr. Tierney. Sure. Why didn't KBR recommend evacuating the 
troops from these same buildings when you inspected them in 
2007?
    Mr. Bruni. Sir, when we inspected them in 2007 and produced 
the technical inspections that identified the deficiencies, we 
had submitted them directly to the mayor, and it was then his 
responsibility to take that and make decisions about what we 
should be turned on to perform.
    Mr. Tierney. Well, you didn't recommend that people 
evacuate the building in 2007, did you?
    Mr. Bruni. No, sir. We did not.
    Mr. Tierney. And everyone keeps referring to the mayor. The 
mayor is a military individual; is he not?
    Mr. Bruni. Yes, sir.
    Mr. Tierney. OK. Now, Mr. Ernst, in February 2008, you 
received the memo from the head of the DCMA in Iraq. The memo 
said that the problems KBR identified in 2008 were virtually 
the same identical to those that were identified in 2007. Let 
me read that memo, if I could. ``The overwhelming majority of 
these findings in the Legion Security Force area were identical 
to those findings or problems as either alleged or identified 
in the 10 February 2007 limited inspection.'' Is that right?
    Mr. Ernst. Could you clarify which report that was, sir?
    Mr. Tierney. This was the report that you received in 
February 2007, relating to the inspections in 2007, the 10 
February 2007 limited inspection.
    Mr. Ernst. What was that the safety inspection report in 
2007?
    Mr. Tierney. It was a memo that you received from the head 
of the DCMA.
    Mr. Ernst. OK. I understand, sir. I received that in 2008, 
but the reference, just for refresher purposes, was that the 
safety inspection?
    Mr. Tierney. I believe it was, but we can check if that 
makes a difference. You either remember getting it, or you 
don't.
    Mr. Ernst. I don't remember getting the safety inspection, 
but I do remember getting this one.
    Mr. Tierney. You remember getting the one that I just read?
    Mr. Ernst. Yes, sir.
    Mr. Tierney. OK. Now, Mr. Bruni, KBR, at that time, said 
that these defects were serviceable. This year, you look at the 
same buildings, and the same problems, and you find that they 
are not inhabitable, and they are the same problem. So, what 
has changed in the intervening 12 months?
    Mr. Bruni. Essentially, nothing, sir. The classification as 
serviceable, but requiring, with qualifications. The 
qualifications are that the deficiencies were to be repaired. 
To further answer your previous question, after those technical 
inspections were delivered to the military at the RPC, there 
were meetings held between the site management and the mayor to 
discuss the next steps and onward progression of what should be 
done.
    Mr. Tierney. Well, what concerns me here, is it looks to 
be, and maybe you are clarifying that now, it looks to be in 
2007, as serious as these were, nobody recommends that the 
buildings be evacuated. In 2008, the same problems, all of a 
sudden, it being recommended that people evacuate, or just 
don't use the facilities, or whatever. All that seems to have 
happened in the interim is that the Staff Sergeant died, and 
this committee started investigating. But are you telling me 
that you had verbal conversations back after the 2007 reports 
and made a recommendation to evacuate?
    Mr. Bruni. No, sir. We did not make that recommendation. 
That is not our recommendation to make in a normal situation.
    Mr. Tierney. Well, it was your recommendation to make in 
2008, why wouldn't you possibly see something that serious in 
2007, something that could result in something this harmful to 
somebody and not make a recommendation that they evacuate.
    Mr. Bruni. Sir, we made the recommendation that the 
deficiencies that had been identified be fixed, that they be 
repaired. When it finally got to the point in February that 
nothing was happening, the general program manager for KBR in 
Iraq met directly and personally with the Commander of DCMA and 
said, something has to be done.
    Mr. Tierney. Why didn't he feel that way in 2007? I mean, 
it was just as serious then?
    Mr. Bruni. Sir, I can't answer that question. I don't know 
why he didn't.
    Mr. Tierney. OK. I yield back, Mr. Chairman.
    Chairman Waxman. Thank you, Mr. Tierney.
    Mr. Sarbanes.
    Mr. Sarbanes. Thank you, Mr. Chairman. I want to go back to 
the Level I, Level II maintenance distinction. Is that the 
right terminology? Or Level A and Level B? Is that what it is? 
So Level A is a higher degree of responsibility for upgrade and 
maintenance than Level B is? And you said that you are not sure 
how the determination was made as to why this particular 
location was under a Level B designation? Is that right?
    Mr. Parsons. Sir, do you mind repeating that question?
    Mr. Sarbanes. I think you said that you are not sure who 
made the decision that this would be a Level B designation in 
terms of the particular location that we have been focusing on 
today?
    Mr. Parsons. Sir, from our review of the information that 
we have seen for the circumstances surrounding that, it was a 
team effort between the customer, which in this case is the 
Multi-National Corps-Iraq. The actual units that are occupying 
that RPC are LOGCAP Program Office was involved with those 
negotiations. DCMA was part of that negotiation, as well.
    It is a team effort on determining, based on the customer's 
resources and their prioritization and risk assessments on what 
those tradeoffs are going to be. I can't tell you for sure what 
the thought processes are for that specific building and why 
they decided that one was Level B, and others Level A, but 
those are resource tradeoffs associated with risks that the 
units are making as they occupy those buildings.
    Mr. Sarbanes. Mr. Bruni, does KBR, I mean, what kind of 
perspective does KBR bring to the discussion of whether 
something is going to be designated as a Level A, or a Level B, 
maintenance responsibility for you all.
    Mr. Bruni. Sir, that is basically a decision made by the 
military, by the mayor, based on his tactical or planning 
process for the use of that base.
    Mr. Sarbanes. OK. So a KBR maintenance person will come 
across a situation and they might determine that a certain 
amount of upgrade needs to be performed, and then they will 
consult with their status of being either in a Level A, or a 
Level B, before they decide whether to do that upgrade. In 
other words, does the KBR person sit there and say, my 
goodness, we have a bad situation here, but this is a Level B 
situation or facility and, therefore, my hands are tied in 
terms of what I can do; is that how it works?
    Mr. Bruni. Yes, sir. Basically, we produce a technical 
inspection that quantifies those deficiencies, and in a Level B 
maintenance or service status, that technical inspection is 
turned over to the mayor of the military entity at that camp to 
make a decision of whether we should be told to make those 
repairs.
    Mr. Sarbanes. And, if you are not told to make those 
repairs, and you come back and you see the situation hasn't 
changed, you just do another report?
    Mr. Bruni. No, sir. There would be most probably, and I 
don't know specifically in this case, but there would follow-on 
discussions with the mayor about his process and priorities for 
moving forward to make these changes, the deficiency 
remediations.
    Mr. Sarbanes. So, presumably, that happened but you still 
weren't getting the orders to fix and upgrade this particular 
situation that we have been focusing on.
    Mr. Bruni. Yes, sir.
    Mr. Sarbanes. Does KBR contract with the Government have 
provisions in it that indemnify you against claims that are 
brought in situations where you make the Government aware of a 
situation in a Level B status, and they don't react and take 
action on one basis or on a repeated basis, do you know?
    Mr. Bruni. I am not aware of that, sir. I don't know the 
answer to that question.
    Mr. Sarbanes. I guess the evidence was, or the testimony we 
have, is that there has been 283 fires at facilities that are 
maintained, or were maintained, by KBR that are traceable to 
electrical problems and dysfunction, is that correct?
    Mr. Bruni. We have just come into possession of that report 
from DCMA, and we are looking at it right now, sir.
    Mr. Sarbanes. I mean, I just find it implausible that a 
contractor of your size and experience wouldn't have pretty 
specific guidelines in place in terms of who would be liable 
under these circumstances. I mean, I guess, you are making the 
case that your arriving in a situation where there has already 
been equipment installed, and then you are just supposed to 
maintain it, but I would think you would get some kind of 
liability protection. You said you don't know who installed 
these things?
    Mr. Chairman, before my time runs out, I would just like to 
ask, does anybody know who did the original fitting out of this 
electrical work? All right. So, how is it possible that nobody 
knows that? I mean because it was done before we were on the 
scene; is that the idea?
    Mr. Parsons. Sir, we became aware that there were previous 
contracts for these facilities that were issued by the Corps of 
Engineers dating back to 2003. I have asked the Corps of 
Engineers to research and go through those contracts to 
understand what the scope of work is. We will share that 
information with the DOD IG. They have an interest in that as 
well, because I had the same question that you did. All right.
    What was the original assessment made on these buildings 
when we first started occupying them? And I can't give you that 
answer right now, but we will definitely get to the bottom at 
taking a look back at what happened in 2003, 2004, when these 
buildings were being occupied by our forces.
    Chairman Waxman. Thank you, Mr. Sarbanes.
    The gentleman from Massachusetts, Mr. Lynch.
    Mr. Lynch. Thank you, Mr. Chairman. I want to thank you for 
holding this hearing, and I appreciate the panel coming forward 
to try to help us make sense of this. I just had an opportunity 
over the weekend to visit Iraq again, specifically, with the 
focus on this hearing. I had an opportunity to sit with General 
Tim McHale, who is conducting the investigation here. And the 
bottom line here, this is a terrible tragedy.
    Sixteen fine young Americans put on the uniform for this 
country, and they were not protected in a very basic way. And 
we did not provide an environment for them within their own 
bases and within their own housing facilities that protected 
them in a meaningful way. Now, as sad as that tragedy is, it 
would be a greater tragedy to point the finger of blame at 
other individuals who may not deserve it.
    But I do want to, with all due respect, and I think it is 
our duty to those families, and also to the 142,000 folks that 
are still over there, that we correct this, that we get to the 
bottom of this, and that we do justice to their memory. It is 
completely mind-boggling that a family in America today would 
send their sons and daughters off to war in defense of this 
country, knowing full well what the dangers were with respect 
to combat and the situation over there, and then to have 
something like this. Something like this electrocution 
happened. It is just extremely, extremely sad.
    Let me start with Mr. Bruni. Mr. Bruni, I understand. I am 
also a construction manager, which is why they sent me over 
there. That was in my former life. You seem to be positing two 
choices here on inspection, and one is you are authorized to 
inspect, but then you need a further authorization to make 
those corrections; is that what you are testifying to today, 
sir?
    Mr. Bruni. Yes, sir. That is correct.
    Mr. Lynch. But sir, and believe me I do not fault you in 
any way, but sir, in my experience, there is a third option. 
And once you discover a deficiency in a system, especially in 
an electrical system, there is a latent danger in that system. 
And I know from my own experience as a construction manager 
that you can tie that off, that you can flag that, and that you 
can require that system not be used until it is corrected. It 
doesn't mean you have to correct it. It doesn't mean you have 
to be authorized to make the repairs, but you are protecting 
someone from using a system that is inherently dangerous.
    Can I ask you why that option was not used here? I 
understand it was in the first instance when the gentleman was 
electrocuted in 2004, there was actually a lock put on, which 
was the proper way to handle this thing. And then someone got a 
key and unlocked that, and then the tragedy occurred. So I 
cannot fault the action taken by the authority in that 
instance. However, in a lot of these other cases, I think there 
may have been an opportunity to tie this thing off, to shut it 
down, and to flag it, so that someone else didn't come along 
and continue to use it.
    We have testimony here of one fine young soldier who was 
shocked four or five times. Now, that in my mind is not 
acceptable and should not have happened. Can you help the 
committee understand why this third option was not used?
    Mr. Bruni. Well, sir, the decision to keep those soldiers 
in those facilities is made by the military. It is not made by 
KBR. And we finally reached the point in February where action 
was taken by the leadership at KBR with DCMA to actually sever 
power and water connections to a number of buildings at the 
RPC, and also, working with the military to establish----
    Mr. Lynch. Sir, when was that? I just want to make sure I 
understand. When was that decision finally made?
    Mr. Bruni. I believe it was February 2008.
    Mr. Lynch. February 2008?
    Mr. Bruni. Yes, sir.
    Mr. Lynch. OK. I'm sorry. Did you want to say anything more 
on that?
    Mr. Bruni. No, sir. I'm finished. Thank you.
    Mr. Lynch. OK. The other thing that troubles me greatly is, 
I had a chance again to sit with Major General Tim McHale, and 
there seems to be a fairly coherent action plan this morning 
after the deaths of 16 of our best and bravest. One, there was 
an assessment made that, yes, we went into a country that had 
terribly deficient electrical standards, it had an assortment 
of Codes in place, none of which in my mind really reached to 
the standard that we require in this country.
    Notwithstanding that fact, we moved our folks into these 
buildings, and there was no really coherent effort to bring 
those buildings up to standards in any meaningful way, not in a 
comprehensive way, maybe, in a patchwork sort of fashion. And 
it seems in hindsight, I realize in hindsight, it seems pretty 
basic that we should have done that.
    The second thing was there is no data base. There was no 
data base for these different Units to understand the dangers 
that were being faced, and the injuries and the fatalities that 
were being encountered by some units elsewhere. And those are 
just two basic things that we are going to do now, thanks to 
General Tim McHale, and some others. But why did it take 16 
deaths to get to that point? Can anybody on the panel help me 
with that?
    Mr. Parsons. Sir, I would just comment that I think this 
committee's interest in this, and the issues that have been 
highlighted to me have pointed out that we do have a gap from a 
doctrinal standpoint that when we do go to an operation and 
occupy buildings built by other countries that don't meet our 
standards, what is our process. I mean, who is making those 
decisions on what buildings we will utilize and which ones will 
be upgraded. And I am confident that the Department is going to 
go and tackle that.
    Again, to me, it is a gap. This has been a long, protracted 
war. We have been occupying facilities that weren't built to 
U.S. standards, and I think we need to come up doctrinally with 
solutions on how do we do that in the future. Obviously, 
General Petraeus is taking this very seriously, and so is Major 
General McHale, and they are tackling it now.
    Mr. Lynch. Sir, if I can just say in closing before I yield 
back, we have a lot of situations over there right now. Some 
number of troops are going to be there for a while. And I have 
been to Afghanistan as well, and we got a similar situation 
there. You guys have to get this right. You have to get this 
straightened out. And it shouldn't take a work authorization to 
remove a dangerous situation. It should just be assumed that if 
the contractor sees a dangerous situation, you flag it, and you 
remove it, take it out of service, and then, it would force the 
contracting authority to authorize the changes.
    I thank you, Mr. Chairman, and I yield back.
    Chairman Waxman. Thank you very much for your questions.
    Mr. Altmire.
    Mr. Altmire. Mr. Bruni, I recently met, as you know, with 
KBR CEO William Utt. During our conversation, he informed me, 
and it has been reiterated today by both you and Mr. Parsons in 
your testimony, that KBR was not involved in any 
electrocutions, as far as maintenance, except for Staff 
Sergeant Maseth's incident, and I assume you would still agree 
with that?
    Mr. Bruni. Yes, sir.
    Mr. Altmire. So I want to turn to another incident that you 
referred to in your written testimony today. It involves the 
incident with Sergeant Christopher Everett, who was 
electrocuted in September 2005, when he was power washing a 
Humvee in a motor pool at Camp Al Taqqadum. Now, on page 5, in 
your written statement, you say, ``Though KBR did have a 
presence . . . at Camp A Taqqadum . . . KBR had no 
responsibility for maintenance of the power washer, the motor 
pool, or the generator that supplied power to the motor pool.''
    So we put in front of you a document, which I have here. It 
is too small to put up on the board, but it has two pieces to 
it. The first page here is a letter of technical direction 
dated January 5, 2005, fully 9 months before Sergeant Everett 
was electrocuted. And in this letter, DCMA is tasking KBR with 
inspecting and maintaining all generators at Camp Al Taqqadum 
that are shown on the attached spreadsheet, which is the second 
and third lists. And if you go to the end of this list, five up 
from the bottom, you will see the motor pool on there.
    So you can see that the generator at the motor pool is, in 
fact, included on this document. It looks like KBR was, in 
fact, responsible for maintaining the generator that supplied 
power to the motor pool that contributed to the death of 
Sergeant Christopher Everett. And so, to give you a moment to 
review that document, would you agree with that?
    Mr. Bruni. Excuse me, sir, it does list the generator, yes, 
sir. But it is our understanding that this particular generator 
did not power the motor pool. Rather, it was approximately 100 
or 200 meters away from the motor pool. It did not power the 
motor pool.
    Mr. Altmire. Do you, given that, and we will reference that 
at the committee, do you want to revise your statement earlier, 
when you said KBR had no responsibility for the maintenance of 
the power wash in the motor pool, or the generator that 
supplied power to the motor pool?
    Mr. Bruni. No, sir. I do not.
    Mr. Altmire. You stand by that?
    Mr. Bruni. Yes, sir.
    Mr. Altmire. Well, we would hope that you would review 
these documents a little bit more closely, and we will return 
to this subject.
    Mr. Bruni. Yes, sir.
    Mr. Altmire. The next question, following the death of my 
constituent, Staff Sergeant Ryan Maseth, the Combined Joint 
Special Operations Task Force, which from my understanding has 
authority over U.S. Special Forces soldiers and Iraqi Special 
Forces soldiers in Iraq, sent teams of electricians out to 
inspect and repair all facilities under its command. 
Additionally, on January 21, 2008, the report states that 
following the death of Staff Sergeant Maseth, DCMA funded KBR 
to fix hazards throughout Sergeant Maseth's compound.
    While I commend the Special Forces and DCMA for taking 
these steps to protect our Nation's Special Forces troops, I 
wonder if similar steps have been taken to protect Americans 
not serving under this command. So, I would say to Mr. Heddell, 
have you determined in your review if similar steps have been 
taken by other military commands throughout Iraq?
    Mr. Heddell. Sir, we know that there have been actions 
taken since January 2nd, after Sergeant Maseth's death, and 
some of those actions were undertaken by the Multi-National 
Corps-Iraq, and others followed approximately a month later, by 
the Multi-National Forces Iraq. I can be more specific if you 
would like. Would that be helpful in terms of exactly what has 
been done?
    Mr. Altmire. Well, I wanted to in my brief time also 
followup with Mr. Williams very quickly, if I could, on the 
same subject.
    Mr. Heddell. OK.
    Mr. Altmire. Has the DCMA provided additional funding to 
KBR so that they may at the very least perform repairs on all 
facilities known to have deficiencies?
    Mr. Williams. Congressman, I would say that DCMA obviously 
orders the contractor, or directs the contractor, based on 
funding that comes from the Army, or the Multi-National Corps, 
based on their prioritization efforts. To the extent the DCMA 
has been given that funding to apply to the contract, I am sure 
that has occurred.
    I would also observe that I think one of the reasons that 
General Petraeus is looking at this very seriously is because 
it is a theater-wide issue, and in many cases, they are 
facilities that do not followup under the particular contract 
that DCMA may have authority over. So, there are those 
facilities that still are outside of the range of the contract, 
and I think that is why General McHale is taking a closer look 
theater-wide.
    Mr. Altmire. Thank you, and I thank the chairman for 
allowing me to participate today.
    Chairman Waxman. Thank you, Mr. Altmire.
    Mr. Brady.
    Mr. Brady. Mr. Chairman, thank you very much for allowing 
me to participate in this hearing today. You are right. This is 
not a Republican or Democrat issue. I appreciate the leadership 
of yourself, Congressman Altmire, Senator Casey, and Senator 
Cornyn of Texas on this issue. Losing one American life and one 
soldier's life to faulty grounding is unacceptable. Continuing 
to lose more is unforgivable.
    In our case, my constituent, Ms. Larraine McGee of 
Huntsville, Texas lost her son, Staff Sergeant Christopher 
Everett. He was killed in Iraq on September 7, 2005 when he was 
electrocuted by an improperly grounded power washer as he 
washed down the Humvee. And in Chris' death, we lost a 
promising 23-year old National Guardsman, who had a bright 
future and came from a very loving family, who wants answers to 
that death. His mom was led to believe this was the first death 
by electrocution. It turns out it was by then at least the 
fourth, and it has continued to happen. And we know war is 
dangerous and death occurs in those struggles, but you don't 
suspect death to come from a swimming pool, or a shower, or a 
car wash.
    And to date, we have 16 deaths, a number of them due to 
contact with power lines, which raises other questions, but to 
date, we have seven known deaths attributed to improperly 
grounded electrical devices, and if KBR is responsible for that 
then the company should have the book thrown at it. But my 
frustration is I cannot seem to determine who is responsible 
for installing that equipment and maintaining it, and I so I 
want to ask those who ought to know, our Army representatives, 
and we have talked about Staff Sergeant Maseth, but earlier 
than that Sergeant Michael Montpetit, who was killed in 
Baghdad, electrocuted while working on a generator at his camp. 
To our Army representatives, Mr. Williams, Mr. Parsons, and Mr. 
Heddell, in that case, who installed that equipment, that 
generator, and who was responsible for maintaining it, do you 
know?
    Mr. Heddell. Are you asking me, sir?
    Mr. Brady. All three of you.
    Mr. Heddell. From an Inspector General's point of view, we 
are attempting to find out, but we do not know the answer to 
that.
    Mr. Brady. Don't know?
    Mr. Heddell. Don't know.
    Mr. Brady. Don't know?
    Mr. Parsons. Don't know.
    Mr. Brady. Don't know?
    Mr. Ernst. Sir, I do not know the answer either.
    Mr. Brady. Don't know?
    Mr. Williams. No, Sir, I do not know.
    Mr. Brady. Thank you. And in 2005, Staff Sergeant 
Christopher Everett was killed, electrocuted by a power washer, 
who installed that motor pool, that power washer? Who was 
responsible for maintaining it, do you know?
    Mr. Heddell. I do not know, sir.
    Mr. Parsons. Sir, I do not know either.
    Mr. Williams. No, sir.
    Mr. Brady. In 2004, Corporal Marcos Nolasco was 
electrocuted while showering in his base in Baji. Do you know 
who installed that shower, and who was responsible for 
maintaining it?
    Mr. Heddell. Again, Mr. Brady, this is a question that we 
are attempting to pursue, and will continue, but we do not know 
the answer.
    Mr. Brady. Private First Class Brian Cutter, killed in Al 
Asad, electrocuted while working on trying to fix the AC unit 
outside his tent. Do we know who installed that AC unit, and 
who was responsible for maintaining it?
    Mr. Heddell. The Inspector General's Office does not know, 
sir.
    Mr. Brady. Specialist Chase Whitman, killed in Mosul, 
electrocuted while just swimming in a pool. Do we know who 
installed that pool, and who is responsible for maintaining it?
    Mr. Heddell. No, sir.
    Mr. Brady. Same answer.
    Mr. Heddell. We are pursuing that.
    Mr. Brady. Finally, Specialist Marvin Camposiles, killed as 
early as April 2004, 4\1/2\ years ago, Coalition Base near 
Samarra, electrocuted while working on a generator as well. 
Does the Army know who installed the generator, and who was 
responsible for maintaining it?
    Mr. Heddell. Mr. Brady, on all of those that you cited, the 
investigations conducted by Army CID and NCIS, we have reviewed 
those, and I believe that I can say accurately that based on 
our review of those investigations, we do not know the answers 
to your questions.
    Mr. Brady. And I guess my frustration is, it has been 4\1/
2\ years, since the first death, why don't we know? Why does 
not the Army know who installed that equipment in those deaths, 
and who was responsible for maintaining it? Why don't we know 
now? I know we have sent letters and I have spoken personally 
to Secretary Gates, and I know Congressman Altmire, and I know 
the chairman has as well. This is not a new issue. Why don't we 
know now who put those facilities in and who was responsible 
for maintaining them?
    Mr. Heddell. If you are asking me, sir, I do not know why 
we do not know, but I do know that almost every question that 
we are addressing here today comes down to an issue of 
leadership, but those questions should have answers, but they 
don't at this time.
    Mr. Brady. Mr. Parsons.
    Mr. Parsons. Sir, I can't explain why there are no answers 
to those questions. And I have asked the same ones that you 
have. Again, that is why I am working with the Army Corps of 
Engineers to try to understand the scope of the contracts that 
they had in place, and what their contractors were maintaining. 
No excuse, but it is a complex issue. We are talking 80 some 
thousand facilities just under LOGCAP alone, but I don't have a 
good answer on why those types of strings weren't pulled at the 
time of the accident. And I can assure you that the Department 
will continue to work with the DOD IG to ferret that out.
    Mr. Brady. And I understand how complex Iraq is, and 
Afghanistan, I understand that, but I would think the red flag 
occurred 4\1/2\ years ago. It should be a focus for our country 
to find out why that occurred. So, my followup question is, 
when will we know? When will you get back to this committee 
with answers of who installed, and who maintained in those 
deaths specifically?
    Mr. Sarbanes. Sir, I will have to get back to you on a time 
line on when we think we will actually have all of that 
information.
    Mr. Brady. Inspector General.
    Mr. Heddell. Sir, we anticipate completing our review of 
this by October of this year.
    Mr. Brady. In October. And will it include specifically who 
was responsible for installing and maintaining?
    Mr. Heddell. We are going to try. We are attempting to 
answer every question that you have asked, sir, and I hope that 
our report contains that.
    Mr. Brady. Mr. Chair, it needs to. It needs to. And again, 
one, we need to fix the problem that is occurring today. And 
two, we need to find out and hold accountable who did it, and 
my frustration is we cannot seem to get the answers that I 
think our soldiers, and their moms deserve. Mr. Chairman, I 
have two questions of Mrs. McGee, Chris Everett's mom asked me 
to ask. Would you like me to submit that, in writing, to KBR?
    Chairman Waxman. If you wouldn't mind, we would like you to 
submit it, in writing, and again a response for the record.
    Mr. Brady. OK. Thank you, Mr. Chairman. I appreciate it.
    Chairman Waxman. Thank you very much, Mr. Brady. I want to 
thank Mr. Brady for the questions he asked, and all the other 
members of this panel, because from what I have heard from the 
witnesses before us, there is a lot we don't know that we 
should know.
    Yet last night, there is a fellow named Geoff Morrell, who 
is the Pentagon Press Secretary, and he called a press 
conference to say about our hearing for today, ``There seems to 
be a misperception out there that our facilities in that 
theater are replete with electrical hazards that have caused 
hundreds of fires and multiple fatalities.''
    And, Mr. Morrell went on to say, it is ``flat out wrong'' 
to suggest that there has been a lack of oversight by the 
Pentagon. I find that incredible, that he would say, he knows 
that it is an overblown issue.
    Well, it is not an overblown issue to Cheryl Harris, when 
she is trying to find out the truth for her son and what 
happened to him. It is not an overblown issue for the family of 
Corporal Marcos Nolasco, in their son's death, who was also 
electrocuted while taking a shower, and they are trying to find 
out the answers about that. It is certainly not overblown for 
the family of Petty Officer David Cedergren who was 
electrocuted in the shower. Specialist Chase Whitman was 
electrocuted in a swimming pool. Their families don't think 
these risks are overblown.
    And I have to say that while there are a lot of things we 
don't know, as soon as Staff Sergeant Ryan Maseth was killed, 
the Army said they knew how he died. They told his mother he 
must have brought in some electrical appliance into the shower 
with him. Well, I just hope that all of you when you go back to 
the Pentagon that you tell the people there after this hearing 
that the Press Secretary ought to stop trying to spin these 
facts away and start looking out for the health and safety of 
our troops.
    We expect people to know what has happened, to hold people 
accountable for what they did, and the most important thing is 
to make sure it doesn't happen again. But I can't say after 
this hearing that I feel assured that the Pentagon, KBR, the 
Inspector General, or any of you, are on top of this situation. 
It is all an interim report still being worked on. Let's find 
out the answers. This panel didn't supply them. I am 
disappointed, but we still insist on getting those answers. And 
we are going to continue to press from the congressional side, 
and we hope that the Pentagon will continue to press as well 
from the military side.
    I thank all of you for your participation, and 
particularly, the two guests for our committee, our two 
colleagues that joined us. We very much appreciate your being 
here. That completes the business of the hearing, and we stand 
adjourned.
    [Whereupon, at 12:10 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Diane E. Watson follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 <all>

</pre></body></html>
